   Office of Inspector General

   Audit Report




Region III’s National Pollutant
Discharge Elimination System
      Permit Program



     Report Number 2001-P-00012

            June 25, 2001
Inspector General Division   Mid-Atlantic Audit Division
Conducting the Audit:        Philadelphia, PA


Region Covered:              Region III


Program Offices Involved:    Office of Watersheds

                             Office of Compliance and
                             Enforcement


Audit Team:                  Michael Wall
                             Anne Bavuso
                UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

                          OFFICE OF INSPECTOR GENERAL

                               MID-ATLANTIC DIVISION

                                   1650 Arch Street

                         Philadelphia, Pennsylvania 19103-2029

                                     (215) 814-5800





June 25, 2001


MEMORANDUM

SUBJECT:	 Final Report of Audit on Region III’s National Pollutant
          Discharge Elimination System Permit Program
          Report Number 2001-P-00012

FROM:	       Michael J. Wall
             Team Leader
             Mid-Atlantic Division (3AI00)

TO:	         Thomas C. Voltaggio
             Acting Regional Administrator (3RA00)

Attached is our final report on Region III’s National Pollutant Discharge
Elimination System Permit Program. Our audit focused on specific permits and,
accordingly, reports on issues we found with those permits.

This audit report contains findings that describe issues the Office of Inspector
General (OIG) has identified and corrective actions the OIG recommends. This
audit report represents the opinion of the OIG and the findings contained in this
audit report do not necessarily represent the final EPA position. Final
determinations on matters in this audit report will be made by EPA managers in
accordance with established audit resolution procedures.

ACTION REQUIRED

In accordance with EPA Order 2750, the action official is required to provide a
written response to the report within 90 days. However, in responding to the draft
report and during the exit conference, Region III officials provided proposed
corrective actions. We ask that your final response provide us with the milestones
of when these actions will be implemented.

We have no objections to the further release of this report to the public. Should
your staff have any questions about this report, please have them contact Anne
Bavuso or myself at (215) 814-5800.
                      EXECUTIVE SUMMARY



Purpose	            The original purpose of our audit was to determine whether
                    National Pollutant Discharge Elimination System (NDPES)
                    permits in Region III were written to ensure water quality
                    protection. However, at the request of the Regional
                    Administrator, we abridged this effort in order to participate
                    in a joint review with EPA’s Office of Water of the Region’s
                    oversight of its NPDES program. Thus, our audit focused
                    primarily on the more problematic permits. Accordingly, this
                    audit does not report on the status of the Region’s current
                    NPDES program. Rather it reports on the specific problems
                    with the permits we reviewed.


Results in Brief	   Several States issued NPDES permits for facilities in Region
                    III that were not written to ensure water quality protection
                    as defined by the Clean Water Act. There were instances
                    where the Region allowed the States to issue weak permits,
                    thus hindering enforcement and enabling facilities to
                    discharge pollutants with impunity. We found that some
                    permits:

                          •      Lacked specific discharge limits.

                          •      Were inappropriately modified.

                          •      Provided for studies rather than limits.

                          •      Contained vague and complicated language.

                          •      Did not contain all Federal regulations.


                    In addition, the inadequacy of these permits contributed to
                    delays in issuing better permits. Such delays occurred
                    because of prolonged negotiations among the facilities, the
                    States, and EPA. Consequently, these permits did not
                    sufficiently prohibit inappropriate discharges of pollutants,
                    resulting in poor water quality and public health risks.

                    We believe these weak permits generally existed because
                    Region III did not sufficiently contest them. We also believe
                    that the Region’s practice of accommodating rather than
                    confronting the States on key permit issues contributed to
                    this situation. The Office of Inspector General supports

                                        i
                                                              Report No. 2001-P-00012
                     partnerships between EPA, State officials, and the facilities.
                     However, such partnerships should not affect EPA’s
                     obligation to carry out its mission of safeguarding public
                     health and the environment.


Recommendations	 We recommend that the Regional Administrator ensure that
                 Region III objects to permits that do not fulfill requirements
                 of the Clean Water Act and Title 40 of the Code of Federal
                 Regulations. We also recommend that Region III use its
                 exclusive authority to issue permits when States do not
                 satisfy Region III’s objections.

                     In addition, we made other recommendations that would aid
                     Region III in acting more forcefully against inadequate
                     permits, such as: (a) discontinue the use of permit language
                     that weakens permits; (b) utilize the expertise of the Office of
                     Regional Counsel and Office of Compliance and
                     Enforcement; and (c) require States to prepare Clean Water
                     Act Section 106 work plans that target the issuance of
                     specific permits and withhold funds when these permits are
                     not renewed timely.


Agency Response Region III generally agreed with our recommendations.
and OIG Comment	 However, it also submitted several arguments to support its
                 oversight practices of State-issued NPDES permits. We
                 evaluated these arguments and commented in Chapter 2.




                                         ii
                                                                Report No. 2001-P-00012
                                            Table of Contents
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

    Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

    Results in Brief . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii

    Agency Response and OIG Comment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii


CHAPTER 1: INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   1

    Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   1

    Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1

    Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             2

    Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            4


CHAPTER 2: SEVERAL PERMITS WERE INADEQUATE . . . . . . . . . . . . . . . . . . . 5

    Review Disclosed Weak Permits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

    Case Studies Demonstrated Permit Weaknesses . . . . . . . . . . . . . . . . . . . . . . 8

    Other Issues Noted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

    Office of Water Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

    Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

    Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

    Region III Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

    OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


CHAPTER 3: SUMMARY OF OFFICE OF WATER BRIEFING PAPER . . . . . . . . 25

    Summary of Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

    Office of Water Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


EXHIBIT A

     National Pollutant Discharge Elimination System Permits

     Expired More than Three Years as of June 2000 . . . . . . . . . . . . . . . . . . . . . . 31


EXHIBIT B

     Region III Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33


EXHIBIT C

     Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65





                                                             iii

                                                                                              Report No. 2001-P-00012
                         CHAPTER 1


                     INTRODUCTION



Purpose 	     The original purpose of our audit was to determine whether
              National Pollutant Discharge Elimination System (NPDES)
              permits in Region III were written to ensure water quality
              protection. However, at the request of the Regional
              Administrator, we abridged this effort in order to participate
              in a joint review with EPA’s Office of Water of the Region’s
              oversight of its NPDES program. Thus, our audit focused
              primarily on the more problematic permits. Accordingly, this
              audit does not report on the status of the Region’s current
              NPDES program. Rather it reports on the specific problems
              with the permits we reviewed.


Background	   The NPDES program controls direct discharges into
              navigable waters. The Clean Water Act and the Code of
              Federal Regulations prohibit industries from discharging
              pollutants into these waters without an NPDES permit. The
              purpose of such permits is to put limits on pollutants that
              can be discharged, and to contain requirements for
              monitoring and reporting. The permits are to be tailored to a
              particular industry and to the operations of each discharger.
              However, permits must ultimately include requirements that
              ensure permittees will meet State water quality standards
              and Federal regulations.

              EPA may authorize individual States to implement the
              NPDES program. The environmental protection agencies of
              Delaware, Maryland, Pennsylvania, Virginia, and West
              Virginia write their permits subject to the review of Region
              III. District of Columbia permits are written by the Region
              itself. The Clean Water Act authorizes EPA and States to
              take enforcement actions against permit violators, but it is
              ultimately EPA’s responsibility to assure that permits
              comply with the Act.

              The Clean Water Act limits the length of permits to five
              years. The timely re-issuance of an expired permit is

                                 1
                                                       Report No. 2001-P-00012
              important to assure that the new permit will include: (a) any
              revisions to Federal regulations or State water quality
              standards; (b) Total Maximum Daily Loads [the amount of
              pollution a water body can absorb and still support Clean
              Water Act minimum goals]; and other changes at the facility.
              At the end of the five-year period, if the permit is not
              renewed, it can be administratively extended providing that
              the discharger applied for the renewal permit more than 180
              days before expiration of the permit.

              In Region III, regarding the permit renewal process, the
              State issues a draft permit for public comment and EPA
              review. In accordance with a Memorandum of Agreement
              between the States and the Region, EPA has 30 days to
              either “comment” on the draft permit, or to raise a “general
              objection.” In the latter situation, the State has 30
              additional days to satisfy the objection, at which time it can
              issue a permit. If the State does not satisfy the “general
              objection,” the Region must provide a “specific objection”
              within the next 30 days. In most situations, Region III
              commented rather than objected to draft permits.

              EPA waives its opportunity to object to the draft permit if it
              does not do so within 90 days following the receipt of the
              proposed permit. If the State does not satisfy the “specific
              objection,” the Clean Water Act, as well as Title 40 of the
              Code of Federal Regulations, gives EPA the exclusive
              authority to issue the permit itself. Such an action by Region
              III has never occurred.


Scope and     We performed this audit according to Government Auditing
Methodology   Standards (1994 Revision) issued by the Comptroller
              General of the United States as they apply to program
              audits. The audit included tests of program records and
              other auditing procedures we considered necessary.

              We began our survey on February 28, 2000, and initiated an
              in-depth review on May 19, 2000. During this time period,
              we began to have concerns about the quality of some permits
              in Region III. On July 6, 2000, the Regional Administrator
              requested that the EPA Headquarters Office of Water
              conduct an assessment of the Region’s oversight of its
              NPDES program, and that the Office of Inspector General

                                  2
                                                         Report No. 2001-P-00012
participate in that assessment. Accordingly, we suspended
our audit work and accompanied Office of Water personnel
on interviews of Region III and State NPDES staff. We also
shared information we had already gathered through our
ongoing work on the NPDES program. This effort was
completed on September 7, 2000, when the Office of Water
issued a briefing paper to the Regional Administrator.
Additional details on the content of that briefing paper,
including recommendations, are provided in Chapter 3 of
this report. Following completion of the interviews, we
resumed our audit work, and completed our audit fieldwork
on October 27, 2000.

Documents we reviewed during the audit included Federal
laws and policies applicable to the NPDES program, the
Memorandums of Agreement between the States and Region
III, the Clean Water Act Section 106 grant files, and the
contents of permit files. We also reviewed data from EPA’s
Permit Compliance System; however, we did not review the
internal controls associated with the input and processing of
information into the database.

The Region’s fiscal years 1998, 1999, and 2000 Assurance
Letters, prepared under the Federal Managers’ Financial
Integrity Act, noted that the NPDES program was listed as a
material weakness because of the high percent of permits
that were “backlogged” (had not been reissued following
expiration). Therefore, we reviewed a Region III listing of 19
permits that had been expired for at least three years. We
focused on 5 of those permits, as well as 3 other permits that
were not in that original sample of 19, that appeared to be
particularly problematic.

We conducted our fieldwork in EPA Region III, at the
Maryland Department of the Environment, at the Virginia
Department of Environmental Quality, at the Delaware
Department of Natural Resources and Environmental
Control, and via phone conference with the West Virginia
Division of Environmental Protection. We met with the EPA
Region III Administrator and interviewed personnel from the
Region’s Office of Regional Counsel and the Water Protection
Division Office of Watersheds and Office of Compliance and
Enforcement. We also interviewed State officials affiliated


                   3

                                         Report No. 2001-P-00012
              with permits within Maryland, Virginia, Delaware, and West
              Virginia.

              We issued our draft report on February 13, 2001. We
              received a response from Region III on April 19, 2001, which
              generally agreed with our recommendations. The response is
              summarized in Chapter 2, and included in its entirety in
              Exhibit B. We held an exit conference with Region III on
              March 12, 2001.



Prior Audit   The EPA Office of Inspector General has not issued any prior
Coverage      reports on the NPDES program in Region III. It did issue
              reports of the NPDES program within Region X (Report
              Number E1HWF7-10-0012-8100076, of March 13, 1998) and
              on the NPDES program for the State of Kansas (Audit
              Report Number E1HWF7-07-0022-8100089, of March 31,
              1998).




                                4
                                                      Report No. 2001-P-00012
                CHAPTER 2


SEVERAL PERMITS WERE INADEQUATE



     Several States issued NPDES permits for facilities in Region
     III that were not written to ensure water quality protection
     as defined by the Clean Water Act. There were instances
     where the Region allowed the States to issue weak permits,
     thus hindering enforcement and enabling facilities to
     discharge pollutants with impunity. We found that some
     permits:

           •      Lacked specific numerical discharge limits.

           •	     Were inappropriately modified by State
                  enforcement agreements.

           •	     Provided for facilities to conduct studies prior to
                  requiring the imposition of pollutant limits even
                  when sufficient data existed to indicate limits
                  were needed.

           •	     Contained vague and complicated language that
                  made them unenforceable.

           •	     Did not contain all required Federal
                  regulations.

           •	     Circumvented compliance with pollutant
                  limitations through the use of Part A/Part C
                  permit formats.

     In addition, the inadequacy of these permits often
     contributed to delays in issuing better permits because
     facilities resisted replacing weak expired permits with more
     stringent limits. We believe these weak permits generally
     existed because Region III did not contest them. Instead, the
     Region accommodated the States in their development of
     permits that would not trigger appeals by the facilities. The
     Office of Inspector General supports partnerships among
     EPA, State officials, and the facilities. However, such

                        5
                                               Report No. 2001-P-00012
                   partnerships should not supersede EPA’s obligation to carry
                   out its mission of safeguarding public health and the natural
                   environment.


Review Disclosed   We found NPDES permits under Region III oversight that
Weak Permits	      were not adequate. Region III personnel supplied us with a
                   list of 19 permits that had been expired for between 3 and 11
                   years (see Exhibit A). We performed a detailed review of the
                   circumstances involving 5 of these 19 permits, and reviewed
                   3 other permits that came to our attention during our audit.
                   We found the following conditions in the permits reviewed:

                                                Some permits lacked the specific
                                                numerical limits required by the
                       Numerical limits         Clean Water Act and NPDES
                       were not included	       regulations for pollutants
                                                contained in facility discharges.
                                                The Act requires limits be
                   included in permits where pollutants will cause, have
                   reasonable potential to cause, or contribute to an exceeding
                   of the State’s water quality standards.

                                                Permits were accompanied or
                                                directly modified by State-issued
                      State agreements          enforcement documents containing
                        inappropriately         compliance schedules. State
                       modified permits	        agreements extended time frames
                                                for compliance, relaxed effluent
                                                limits, and otherwise delayed
                                                imposing effective and protective
                   limits on the facility’s discharge, sometimes for many years.
                   Although States are not prohibited from entering into
                   agreements with facilities to give them time to comply with
                   permit limits, the Clean Water Act prohibits a permit from
                   containing a compliance schedule that extends the Act’s
                   deadline or otherwise modifies or postpones Clean Water Act
                   or NPDES requirements.

                                                     Permits provided for studies
                                                     to be conducted that would
                       Studies caused delays	
                                                     delay imposition of limits
                                                     even though available data
                                                     had already existed to

                                      6
                                                             Report No. 2001-P-00012
indicate specific limits were necessary. Furthermore, once
the study was completed, permits did not require the
modification of the permit to include the results of the study.
State environmental officials were required by the permit to
assess the study and make a decision to amend the permit
based on study results, but States did not always complete
this task, allowing the facility to meet a less stringent
pollutant discharge limit.

                              Permits contained vague or
                              complicated language that made
     Vague language           it difficult to track compliance or
         prevented            take enforcement actions. The
       enforcement            permits set limits and
                              monitoring requirements, but
                              also contained footnotes and
special conditions that altered the stated terms and
conditions. The referencing of State/facility agreements to
the permit also confused permit language.

                           Permits did not always align with or
                           contain all required Federal
         Federal           regulations, which prevented EPA
       regulations         from taking enforcement action
   were not included	      against facilities. Specifically,
                           permits did not contain limitations
                           for the protection of water even
where data indicated that there was a reasonable potential
to exceed water quality standards. In addition, Regional
staff disclosed that other permits did not include a
requirement for secondary treatment as required in 40 Code
of Federal Regulations Part 133.

                           Regional personnel allowed a State
                           environmental agency to use a
      Permit format        permit format known as
      circumvented         Part A/Part C. This format allowed
        compliance         facilities to circumvent compliance
                           with the 1987 amendments to the
                           Clean Water Act by giving the
facilities compliance options for toxic pollutants. Thus, the
Region fostered agreements that were vehicles for confusing
language that diminished Regional oversight and prevented
enforcement actions to occur.

                    7
                                           Report No. 2001-P-00012
Case Studies         The following narratives discuss three of the eight case
Demonstrated         studies that we reviewed in detail.
Permit
Weaknesses                                  As a result of a weak permit that
                                            expired in 1989, this Pennsylvania
                        Case Study A        facility was given an extraordinary
                                            amount of time to correct significant
                                            discharges of pollutants. The permit
                     was weak because it incorporated a 1973 Consent Agreement
                     between the State and the facility that allowed the facility to
                     acquire time extensions for its discharges to meet State
                     water quality standards. The facility argued that it was
                     technologically impossible to achieve a certain water quality
                     standard for color pollution. However, both the State and
                     EPA repeatedly disputed this conclusion.

                     The State finally submitted a draft permit in 1997 after the
                     permit had been expired for eight years. Negotiations then
                     commenced between the parties involved and continued for a
                     number of years. During this period Region III objected to
                     several different versions of draft permits. However, the
                     Region eventually withdrew its objections, stating it would
                     refrain from overriding the State and issuing a permit on its
                     own as long as negotiations continued.

                     In the meantime, the facility legally discharged its waste
                     products for at least 30 years, the last 11 of which were
                     under an expired permit. These waste products caused
                     offensive odors and discolored a water body flowing through
                     an area where over 46,000 people live and work; impairing
                     the growth of aquatic plants; and jeopardizing the health of
                     migratory birds and aquatic life.

                     The following chart illustrates the events that pertain to this
                     situation.



 1968   State modifications to the facility’s discharge permit were challenged
        before the State’s Environmental Hearing Board.




                                        8
                                                               Report No. 2001-P-00012
1973    The facility and the State Environmental Hearing Board entered into a
        Consent Agreement, which required the facility to achieve the water
        quality standard for color by June 1977. The agreement also allowed for
        time extensions if it could be demonstrated that the limit could not be
        achieved.
1975-   Over this 9-year time period, the State granted the facility numerous
1984    time extensions to achieve the color standard.
1984    The State renewed the permit, modifying it to a 1973 Consent
        Agreement, thus enabling the facility to continue to request time
        extensions. EPA raised no objection.
1989    The 1984 permit expired. The State and the facility entered into an
        amended Consent Adjudication. Admitting that the existing instream
        color levels had a deleterious effect on some aquatic species, the
        Adjudication required the facility to report on progress towards
        achieving the water quality standard for color.
1989-   Over this 10-year time period, the facility submitted various progress
1998    reports to the State as required by the 1989 Amended Consent
        Adjudication.
1996    The U.S. Fish and Wildlife Service alerted the State that dioxin levels
        found in fish downstream of the facility might be affecting bald eagles
        that eat the fish.
1997    In March, the State submitted a draft permit to EPA . In June, the
        Region objected to this permit because of concerns about dioxin and
        furan. In October and November, meetings took place between the
        State, the facility, and U.S. Fish and Wildlife Service to discuss the
        objection. In December, the State issued a second draft permit.
1998    Region III commented on the second draft permit which was not
        complete. The State submitted a third draft permit and EPA withdrew
        its objection.

        The State, through EPA, retained a team of consultants who asserted in
        a July 1999 memorandum that new advances in technology were
        available to further reduce the color in the facility’s effluent. EPA
        promulgated new rules for this industry, but left it to each State to
        decide the quantitative color limit in each permit.




                                         9
                                                                Report No. 2001-P-00012
1998    EPA also established a voluntary Advanced Technology Incentives
cont.   Program, with facilities having until April 15, 1999 to decide to
        participate. On April 15, 1999, the facility decided to participate.

        The Region, the State, and the U.S. Fish and Wildlife Service
        participated in a study of dioxin concentrations in fish downstream of
        paper mills in Pennsylvania.
1999    In January, the State submitted a fourth draft permit. In April, the
        Region objected to this draft because it failed to comply with the State
        water quality standard for color. In July, the Region withdrew this
        objection, stating:

                     EPA believes that its discussions with the State
                     regarding the permit have been productive, and are
                     likely to result in agreement about the terms of the
                     state-issued permit in the future. That being the case,
                     EPA intends to exercise its discretion in this case and
                     refrain from issuing the permit while EPA and the
                     State continue discussion.

        In October, the State submitted a fifth draft permit.
2000    In January, the State submitted a sixth draft permit. Although the
        Region found this permit acceptable, it objected to a separate document,
        a draft Consent Order and Agreement, whose language modified the
        permit.

        In April, the State, the facility, and citizens’ groups met to discuss the
        issues. In August, EPA submitted a document to a Federal Court in
        support of a lawsuit brought by a citizens’ group against the facility, and
        asserted its right to exercise veto authority over State-issued permits.

        By September, the State and the Region resolved the issues regarding
        the Consent Order and Agreement and the permit was issued.
        However, the facility now appealed the permit’s limits. This appeal
        went before the State Environmental Hearing Board, which denied in
        part the facility’s request to stay the limits of the new permit. The
        Board also decided that the facility would be unlikely to prevail on the
        argument that the 1989 Consent Adjudication provided it immunity in
        perpetuity, and that the color limit was technologically infeasible to
        achieve.



                                        10
                                                                Report No. 2001-P-00012
                                         Prolonged negotiations between this
                                         Maryland facility and the State over
                      Case Study B
                                         many years delayed the issuance of a
                                         permit to help protect the Baltimore
                                         Harbor and Chesapeake Bay. Toxic
                   pollutant limits should have been incorporated into this
                   facility’s permit upon expiration in 1990. Instead, the State
                   amended the permit in 1989, reinstating confusing language
                   from the 1985 permit. This language prevented Region III
                   and State officials from knowing the exact limitations for
                   certain pollutants when the permit issues were being
                   discussed. The permit was issued on February 27, 2001.

                   According to EPA documents, the facility discharged its
                   wastes into the Baltimore Harbor, one of the three “Regions
                   of Concern” in the Chesapeake Bay, and this facility is one of
                   the largest dischargers of both nutrients and toxics in the
                   Bay watershed. The facility discharged cadmium, copper,
                   lead, mercury, oil, grease, and nickel into the Baltimore
                   Harbor, which is classified as impaired for both aquatic life
                   and human health. These substances are toxic to aquatic
                   life, and some are acutely toxic to humans, causing cancer,
                   contact dermatitis, respiratory problems, stomach and
                   intestinal distress, liver and kidney damage, anemia, and
                   other illnesses. Region III’s Chesapeake Bay Program has
                   spent hundreds of thousands of dollars to develop Regional
                   Action Plans to clean up the Baltimore Harbor since the mid-
                   1990s.

                   The following chart illustrates the events that pertain to this
                   situation.



1980   The State issued a permit.
1984   Two environmental groups filed a complaint against the facility. A
       settlement required the facility to improve its flow monitoring
       procedures and pay $1,000,000 to a trust fund and $500,000 to the
       United States.




                                      11
                                                             Report No. 2001-P-00012
1985   The State issued a permit on October 10 to replace the 1980 permit.
       However, Region III personnel could not furnish us with the 1985
       document for review. According to Region III staff, the 1985 permit
       contained footnotes that gave the facility an allowance for pollutants
       already contained in the water the facility used for its manufacturing
       processes. It also contained language that referenced the permit to a
       1985 Consent Decree. Permits containing such language run the risk of
       inferring that the permit limits are modified, thus reducing the Region’s
       ability to enforce the permit. Citizens’ ability to take legal actions
       against the facility for violating the terms of its permit is also reduced.

       On the same day the permit was issued, the State also entered into a
       Consent Decree that reportedly reinstated the limits of the 1980 permit.
       The terms of the Consent Decree allowed less stringent limits than the
       1985 permit, and continued the allowance for pollutants in the facility’s
       process waters until July 1, 1988. However, the document also allowed
       the facility to request a continuance of the allowance. Although the
       facility made the request, the State did not make a decision in 1988 or
       thereafter on the issue. As a result, the less stringent limits of the
       Consent Decree remained in effect.
1989   In March, the State amended the 1985 permit. The amended permit still
       contained footnotes that allowed the facility to take credits for pollutants
       in waters it used for its manufacturing process. Specifically, the
       pollutants discharged were ammonia, cyanide, oil, grease, lead,
       chromium, zinc, and phenol, all toxic to human health and the
       environment with exposure to high levels. In addition, the amended
       permit also referenced the 1985 Consent Decree, thereby incorporating
       its less stringent pollutant limits. The amended permit also allowed the
       Consent Decree to remain in effect until the State made a decision on
       the facility’s request for an extension. However, the State never ruled
       on the request.

       In December, the State submitted a draft permit to Region III. Although
       the Region had allowed an amended permit to be issued nine months
       earlier, the Region objected to a new draft permit, stating “the permit
       contains limits which purport to apply beyond the term of the permit.”
       The Region also objected because “the modification results in
       unenforceable limitations.”




                                       12
                                                               Report No. 2001-P-00012
1990   In May, the Region reminded the State that it had yet to satisfy the
       objections raised in December 1989. The Region acknowledged that the
       facility was appealing the draft permit. Nevertheless, the Region
       renewed its objection and reminded the State of EPA’s authority to issue
       a permit for this facility under the Clean Water Act. However, the
       Region stated that it would refrain from exercising its exclusive
       authority until September 1, 1990. Although the State never satisfied
       the objection, EPA did not exercise its authority to issue a permit.

       Also in 1990, the State revised its water quality standards for toxic
       pollutants, in response to 1987 amendments to the Clean Water Act.
       The amendment required States to submit to EPA lists of impaired
       waters, as well as lists of dischargers of toxic pollutants, and an
       individual control strategy for each of the listed dischargers. In
       response, this facility, as well as other entities, sued to stop the State
       from imposing the new standards. After the suit was settled in 1993,
       the State promulgated new water quality standards. The suit also
       reiterated the State’s regulation that provided that criteria may be
       developed on a site-specific basis.

       Furthermore, the State and EPA listed the facility as one of several
       dischargers of toxic pollutants that impaired the water quality of the
       Baltimore Harbor. The facility disputed this decision. The State filed a
       complaint against the facility for oil spills and releases of hazardous
       materials, such as ammonia, and penalized the facility $15,000.

       In October, the 1985 permit expired.
1991   EPA filed a Consent Decree to address oil and hazardous substance spill
       violations by the facility. The facility was to achieve a higher standard
       of care in all aspects of the management and movement of hazardous
       substances and oil by implementing a Spill Management Program.
1993   Replacement of the permit that expired in 1990 was further postponed
       while revisions to State water quality standards were being discussed.
       In the meantime, the facility requested that no permit limits be imposed
       on it for copper and nickel, and applied for a site-specific variance.




                                        13
                                                                Report No. 2001-P-00012
1995   The State circulated a draft permit that included limits for copper and
       nickel, but delayed the effective date of the limits until 1998 to give the
       facility time to justify a site-specific variance. But when the facility
       objected to the copper limitations, the draft permit was never made
       public. Also, results of a study conducted by the facility were submitted
       to the State, which in turn concluded that the facility’s request for a
       variance was justified. Citizens’ groups opposed the variance and
       further negotiations ensued.
1997   In July, a study by the facility supported its contention concerning the
       copper limit, but it did not support its position on the nickel limit. Thus,
       the facility withdrew its request for a modified nickel criteria. The
       facility and the State entered into a consent order to resolve permit limit
       violations. In addition to paying a $50,000 penalty, the facility
       submitted a corrective action plan to address violations.
1998   The facility began to operate a new mill without applying for a new
       source permit, even though a new permit was required.
1999   In July, the State asked Region III for feedback on not putting copper
       limits in the permit. The Region agreed to omit copper limits if the
       permit contained a condition requiring additional copper sampling to
       assure compliance with water quality standards. The Region also
       commented that the permit should contain a clause that would allow a
       copper limit “if the sampling showed water quality exceedances.”

       In December, the University of Maryland Law Center requested a
       meeting with Region III and State officials concerning this facility’s
       permit.
2000   In January, the State sent Region III a draft permit for its review. This
       permit contained no limits for copper or nickel. In May, the State
       submitted another draft permit to the Region that still had no limits for
       copper or nickel. In June, the Region submitted comments to the State
       and others, including environmental groups. In October, the State
       submitted another draft permit to the Region and a letter responding to
       regional comments.




                                        14
                                                               Report No. 2001-P-00012
2000    In November, the Region raised a general objection to the draft permit,
cont.   with some of the main issues being: (a) the use of older data to calculate
        pollutant limits; (b) discharges from a new operation were not based on
        newer and more stringent performance standards; (c) the use of a
        compliance schedule that would have exceeded Clean Water Act
        deadlines which have already passed; and (d) the need for limitations for
        cyanide, copper, lead, nickel, zinc, ammonia, and phenol. In December,
        the Region specifically objected to the draft permit for the same reasons.

        Although the corrective action plan for proper management and
        handling of oil and hazardous substance of 1997 was implemented, the
        facility continued to report data that showed violations of permit limits.

        The University of Maryland Law Center initiated a suit against the
        facility for discharging pollutants and for operating a new source
        without obtaining a permit, and asked to review the facility’s production
        records. This in turn started a dispute over whether such records are
        confidential business information.
2001    In January, Region III participated in a meeting of all the parties,
        including regulators, the facility, and concerned citizens. In addition,
        another draft permit was issued that contained limits for copper, nickel,
        and cyanide, to be effective in three years. In the meantime, interim
        limits would be in place, giving the facility time to come into compliance.
        The Region also sent a letter to the State lifting its November objection
        to the draft permit.

        The State issued the permit on February 27, 2001.


                                          This permit was not included on the
                       Case Study C	      backlog list provided to us by the Region.
                                          Rather, we noted it as a problem during
                                          the course of our field work. This is an
                                          example whereby a permit included a
                     limit but did not require compliance with the limit. This
                     occurred because the Region made an agreement with the
                     State environmental agency to issue permits for toxic
                     pollutants that would be less likely to be challenged by the
                     dischargers and end up on the backlog list. Specifically, Part
                     A of the permit contained limits on toxic pollutants.
                     However, Part C of the permit allowed the facility the option
                     to perform a study instead of adhering to the limits in Part


                                        15
                                                                Report No. 2001-P-00012
A. The State was then to evaluate the study results and
establish final limits. However, in this case, according to
Region III, the State “did not act on the study results and the
final limit did not go into effect.” This set of circumstances
contributed to a community’s drinking water supply being
contaminated with nitrate, a toxic pollutant, and the need for
bottled water to be provided to pregnant women and infants.

Exposure to high concentrations of nitrates, which are
discharged by this facility, reduces the capacity of blood to
carry oxygen, thus turning skin blue and causing shortness
of breath, which impairs other bodily functions. The Safe
Drinking Water Act sets the maximum health-based
standard, and indicates that pollution above this standard is
unhealthy for all people, but is an especially serious health
threat for infants, who can rapidly develop a life-threatening
condition known as blue baby syndrome.

This Pennsylvania facility is located upstream from a creek
used by a community as an alternative, or emergency,
drinking supply in the summer months, when drought can
diminish the primary source. Since the 1970s, the facility’s
discharge of nitrates steadily increased. On August 18, 1995,
the State issued a permit. However, the Region allowed the
State to structure this permit to inappropriately give
facilities compliance options.

In essence, the permit only contained “preliminary” limits for
nitrates, which would not go into effect until: (a) they were
refined by a study done by the facility; (b) the State reviewed
the study results; and (c) the State modified the permit to
implement the limits. Moreover, the permit did not actually
require the State to amend the permit should the study show
a nitrate problem. We were led to understand that the
Region agreed to let the State allow studies rather than
stipulate limits for this facility, and others, in an effort to
prevent appeals by dischargers. We also noted that this
same permitting format was used with other Pennsylvania
facilities discharging toxic pollutants.

At the time of the 1995 permit, the facility’s discharge of
nitrates per day exceeded the permit’s “preliminary” nitrate
limit by tenfold, and the facility has more than tripled its
discharge per day since that time. When the facility reported

                   16
                                          Report No. 2001-P-00012
these levels to the State in 1997, instead of amending the
permit, the State advised the community to relocate its
emergency drinking source and to provide bottled water to
pregnant women and infants.

Region III did not learn of the situation until contacted
directly by a citizens group. The Region had not monitored
the preliminary permit limits because the facility had opted
to perform the study. Furthermore, the State had not
reported the contaminated water body into EPA’s Safe
Drinking Water Information System because it does not
report on the status of emergency water sources. In addition,
according to the Region III Office of Regional Counsel, the
flaws in the language of the permit rendered it unenforceable
because it did not require the State to amend the permit
after the performance of the study.

The 1995 permit expired on August 17, 2000. Upon receipt
of a draft permit on September 25, 2000, to replace the
expired permit, Region III requested 90 days for comment.
In the meantime, EPA, the Department of Justice, and the
facility planned to sign a Consent Order whereby the facility
will reduce the nitrate discharge, provide an alternative
water source, and study wells along the affected water body
for nitrate pollution. In its response on November 21, 2000,
the Region objected to the permit for various reasons. One
reason was the inclusion of a compliance schedule for the
facility to meet the nitrate limit. The facility had already
been granted a compliance schedule and additional
compliance time in the 1995 permit.

To conclude, the State knew of high levels of nitrate in the
town’s drinking water source in 1987 but only issued
advisories to pregnant women and small children. Region III
was unaware of the nitrate pollution situation, mainly
because the permit was structured in a way that made its
tracking of permit violations impossible. Although the
Region took enforcement actions once it became aware of the
problem, this situation should not have occurred.




                  17

                                         Report No. 2001-P-00012
Other Issues Noted	 During our review, we noted that recent efforts by Region III
                    to reduce the number of permits on its backlog list have been
                    considerable. As of February 2001, according to an EPA
                    status report, it ranked third among the ten Regions in its
                    efforts to work with States to meet Headquarters’ goals to
                    reduce the backlog.

                      We also noted that Region III did not utilize the expertise of
                      its Office of Compliance and Enforcement and Office of
                      Regional Counsel. Specifically:

                      •	    The Region’s Office of Watersheds, which was
                            responsible for reviewing the draft permits, generally
                            did not involve the Region’s Office of Compliance and
                            Enforcement with reviews of draft permits, even
                            though this Office was responsible for enforcing the
                            permits and its staff was knowledgeable on how a
                            quality permit should be written. Region III personnel
                            expressed concern regarding commingling, which is a
                            situation whereby the integrity of the permit is
                            jeopardized by its being reviewed and enforced by the
                            same EPA personnel. For example, a legal challenge
                            to Region III enforcement cases could prevail if Region
                            III enforcement personnel working on a particular
                            facility enforcement action also worked on the review
                            of the same facility’s draft permit. However, this
                            situation was not present in the instances we
                            reviewed.

                      •	    According to Office of Regional Counsel staff, they
                            were not consulted on important permit issues, even
                            though it was their responsibility to ensure that the
                            Clean Water Act and EPA regulations were
                            implemented.

                      In addition, Region III did not condition grants to require
                      States to issue specific permits. Section 106 of the Clean
                      Water Act authorizes EPA to provide Federal assistance to
                      States to establish and implement ongoing water pollution
                      control programs. The States are required to submit a yearly
                      work plan agreeing to perform planned activities during the
                      grant year. Grant funds can be withheld when States do not
                      adhere to their work plans. We noted that the work plans

                                         18
                                                                Report No. 2001-P-00012
                  merely obligated the States to issue permits without
                  specifying which facility permits should be issued.



Office of Water   The Office of Inspector General generally endorses the
Evaluation        recommendations of the separate Office of Water evaluation.
                  We particularly agree with the recommendations for
                  improvement of permit review processes. Details on the
                  Office of Water Evaluation are in Chapter 3 of this report.
                  Because our review concentrated on weak permits that were
                  expired for a significant amount of time, we would like to
                  stress the significance of the Office of Water’s findings
                  concerning the quality of permits in Region III. The Office of
                  Water concluded that:

                  •	    Nearly all Region III State permits for Publicly Owned
                        Treatment Works failed to include the requirement for
                        85 percent removal (secondary treatment), and failed
                        to require influent monitoring to assess compliance
                        with the percent removal requirements.

                  •	    Several permits omitted or modified standard
                        conditions required by 40 Code of Federal Regulations
                        Section 122.41, and several Publicly Owned Treatment
                        Works permits did not include the condition required
                        by 40 Code of Federal Regulations Section 122.42(b).

                  •	    Several permits appeared to indicate the need for
                        water quality based effluent limits, but the State chose
                        to delay the inclusion of limits pending further
                        analysis.



Conclusion	       EPA’s responsibility is to carry out the mandate of the Clean
                  Water Act. The Act prescribes the Agency’s level of oversight
                  for the NPDES Program. Weak permits represent a very
                  real threat to the environment and human health. While we
                  recognize that maintaining a good relationship with States is
                  important, such relationships should not result in weak
                  permits.



                                     19

                                                            Report No. 2001-P-00012
                    EPA has already identified expired permits as an Agency
                    weakness that undermines its ability to carry out its
                    statutory mandates. An expired permit will not contain
                    terms and conditions based on the most recent standards and
                    facility changes, in effect delaying prospective environmental
                    improvements to the nation’s waters. Thus, if the expired
                    permit was flawed to begin with, the effects of these flaws
                    will be prolonged.

                    In addition, weak permits directly contribute to facility
                    resistance to replacement with more stringent permit
                    conditions, and can prolong replacement of an expired
                    permit. Facilities reap an economic benefit when they are
                    not required to implement strong permits. Thus, the longer
                    they can negotiate over a replacement permit, the greater the
                    economic benefit for the facility.

                    In general, Region III’s perspective that States are partners
                    with EPA in carrying out environmental work is appropriate.
                    We agree that partnerships between EPA, State officials, and
                    local industries are useful. However, this does not supersede
                    EPA’s obligation to carry out its mission of safeguarding
                    public health and the environment. Therefore, it is
                    imperative for EPA to ensure that NPDES permits are of
                    high quality and are enforceable.


Recommendations	 We recommend that the Regional Administrator ensure that
                 Region III:

                    1-1	   Objects to permits that do not fulfill requirements of
                           the Clean Water Act and Title 40 of the Code of
                           Federal Regulations.

                    1-2	   Uses EPA’s exclusive authority to issue permits when
                           States do not satisfy Region III objections.

                    1-3	   Stops the use of Part A/Part C permit formats that
                           allow language to include special provisions that
                           weaken the permit.

                    1-4	   Utilizes the expertise of the Office of Compliance and
                           Enforcement and the Office of Regional Counsel, as
                           appropriate, when reviewing permits.

                                       20
                                                              Report No. 2001-P-00012
                  1-5	   Requires States to submit Clean Water Act Section
                         106 work plans that target specific draft permits due
                         for renewal in a given year and withhold funds when
                         permits are not renewed in a timely manner.

                  1-6	   Defines how the results of studies that are required in
                         permits are tracked by Region III personnel.

                  1-7	   Implements the recommendations in the Office of
                         Water’s briefing paper issued September 7, 2000,
                         taking into account the additional recommendations
                         made above.


Region III        The Region agreed with our conclusion that weak permits
Response to the   are inappropriate because they provide a disincentive to new,
Draft Report      more stringent permit requirements. Region III also
                  generally agreed with our recommendations. Specifically,
                  the Region commented that it:

                         S     Has and will continue to object to permits where
                               they fail to meet State and Federal regulations.

                         S     Agrees that it is important for the States and
                               dischargers to understand that EPA can and
                               will take over an NPDES permit, if appropriate.

                         S     Agrees and will ensure that the use of “Part A/
                               Part C” language is discontinued.

                         S     Agrees that it is appropriate to use the expertise
                               of the Office of Compliance and Enforcement
                               and the Office of Regional Counsel, particularly
                               in complex permits, such as the cases included
                               in this report.

                         S     Will consider withholding funds for Fiscal Year
                               2002 where appropriate.

                         S     Is now emphasizing, where studies are required,
                               that permits will contain a fixed compliance
                               date, so that limits are not withheld pending
                               State or permittee action on a study.


                                     21
                                                            Report No. 2001-P-00012
                        S	     Has begun to implement the recommendations
                               of the Office of Water’s evaluation, beginning
                               with a process to engage the States in a
                               commitment to certify that permits meet the
                               Critical Elements of the NPDES program.
                               Region III expects to continue working on
                               implementing those recommendations in the
                               next few months.



OIG Evaluation	   Although Region III generally agreed with our
                  recommendations, it also presented arguments disputing
                  contents of the finding. Where we agreed with these
                  arguments, we modified the finding. But there were still
                  areas of disagreement.

                  For example, the Region stated that the OIG should not
                  make “far reaching conclusions” based on a review of a small
                  number of the most technical and complex permits in the
                  Region. While our review focused on a limited number of
                  problem permits, some of which were on the backlog list, we
                  did not draw conclusions regarding the quality of all permits.
                  Moreover, the Region’s fiscal years 1998, 1999, and 2000
                  Federal Managers’ Financial Integrity Act Assurance Letters
                  noted the NPDES program as a material weakness because
                  of the high percentage of backlogged permits. In addition,
                  the Office of Water evaluation expressed similar concerns
                  with the quality of some permits.

                  The Region asserted that we oversimplified the process
                  whereby EPA could object and issue a permit, an event that
                  has occurred less than a dozen times nationwide. If the
                  State had not issued a draft permit, or had revoked an
                  objectionable draft permit, EPA would not have the authority
                  to issue a permit, as was the case in a few of the permits
                  reviewed by the OIG. The Region also asserted that
                  withdrawing a State’s authority because of a single permit
                  would be a “draconian” response.

                  We understand the process; EPA can only issue a permit if it
                  specifically objects to a draft permit issued by the State. We
                  also understand that the likelihood of such an objection could
                  cause delays in the issuance of a permit. Our report

                                    22
                                                           Report No. 2001-P-00012
discusses permits that were expired for more than three
years. As shown in Case A, the Region allowed the State to
issue a weak permit in 1984, causing this permit not to be
replaced with a stronger permit until 2000. With regard to
withdrawing a State’s authority to issue permits -- we never
advocated such a “draconian” response.

Finally, the Region asserted that the Office of Watersheds
did consult with the Office of Compliance and Enforcement
and with the Office of Regional Counsel on important permit
issues. In response, we can only offer that we were
repeatedly told by personnel within these offices that the
Office of Watersheds did not regularly consult with them
when reviewing permits. Moreover, the Office of Water
evaluation also noted that, “ ORC and OCE are rarely
involved in the routine review of permits, and are not made
aware of significant comments raised on specific permits.”




                  23

                                         Report No. 2001-P-00012
24
     Report No. 2001-P-00012
                                 CHAPTER 3


   SUMMARY OF OFFICE OF WATER BRIEFING PAPER



Note: The following represents excerpts from a 39-page briefing paper prepared by
EPA’s Office of Water, Water Permits Division, Office of Wastewater Management,
on September 7, 2000.


Summary of            This briefing package provided a bulleted summary of the
Findings              key findings of the evaluation:

                      •	     The Region oversees approximately 749 major and
                             7,918 minor facilities covered by individual NPDES
                             permits. The Region’s current practice is to review
                             100 percent of the permits for majors, and any minors
                             affected by Total Maximum Daily Loads. Based on our
                             interviews, approximately 4-5 full-time employees are
                             devoted to permit review (across the 3 permits
                             branches). Therefore, each full-time employee is
                             responsible for about 30-40 majors and about one
                             general permit per year, plus any minors that are
                             submitted due to Total Maximum Daily Loads
                             implementation.

                      •	     Both Region III and State NPDES staff indicate that
                             they have a good, cooperative working relationship.
                             The willingness of the staff to listen, communicate
                             openly and honestly, and work with the States to
                             resolve differences was considered a strength of the
                             oversight program. The current Regional organization
                             has helped to foster this cooperative working
                             relationship.

                      •	     Despite the efforts of Regional staff and the good
                             working relationship between the Region and the
                             authorized States, some concerns were identified by
                             this review regarding the consistency, timeliness, and
                             enforceability of some permits issued by Region III
                             States. Based on our interviews with the NPDES


                                         25
                                                               Report No. 2001-P-00012
  staffs in Region III and the States, review of select
  State permits, and review of the Inspector General’s
  preliminary findings regarding specific permits, the
  following concerns regarding the Region’s oversight
  program have been identified:

—	 The review of Region III NPDES permits, conducted
   as part of the national permit quality review project,
   indicated several deficiencies in State permits. Most
   of these deficiencies, however, appeared to be
   isolated cases.

—	 Region III’s oversight practices, including how
   reviews are conducted and documented, how
   comments are transmitted, and how issues are
   resolved, vary from State to State and have
   contributed to inconsistencies in State program
   implementation.

—	 The Region’s expectations regarding permit content
   and quality are not explicitly communicated to the
   States. It appears this has contributed to
   inconsistent application of NPDES program
   requirements.

—	 The Region has not established criteria regarding
   which permit concerns should be raised as informal
   comments versus formal objections. This has led to
   States disregarding the Region’s comments with no
   record of their response, or failing to respond
   adequately or in a timely manner to more significant
   issues that are not raised as objections by the Region
   during permit reviews.

—	 The permit review, comment, and objection process
   lacks formal procedures, including time frames for
   raising and resolving Regional comments and
   objections. This has contributed to States failing to
   adequately respond to comments and has led to
   protracted resolution of issues raised by the Region
   during permit reviews.

—	 Relatively little information is requested from or
   provided by States to allow the Region to anticipate

              26
                                     Report No. 2001-P-00012
                            and plan its permit review workload. Additionally,
                            the Region has only recently begun to use
                            management tools to track the receipt, review,
                            comment transmittal, comment response, or other
                            aspects of its oversight activities across all States.
                            The lack of a management system has contributed to
                            the other concerns noted above.

                        —	 Staff level Regional permit reviewers often have
                           little permit writing, site inspection, or other
                           practical experience compared to their State
                           counterparts. In addition, they often do not remain
                           in their permit reviewer positions for even one
                           permit term (5 years).

                        —	 Communication between the Region’s permits and
                           enforcement staff has been sporadic and lacking in
                           structure. This has resulted in misunderstanding
                           and mistrust with respect to expectations regarding
                           permit content, quality, and enforceability.


Office of Water While the Region’s permit program staff are trying to meet
Recommendations their responsibilities within the constraints of time and
                resources, the concerns noted above indicate that there are
                areas of the oversight program that should be strengthened.
                In particular, the Region should work to standardize its
                internal procedures for permit review, and should
                communicate permit quality objectives and expectations for
                resolving comments and objections more clearly to its
                authorized States. In addition, the Region should reassess
                its workload management practices to better anticipate the
                permits that will be submitted by the States and focus its
                efforts on permits that are of the most significant
                environmental concern. There are also opportunities to more
                fully integrate enforcement and Regional Counsel staff into
                NPDES permit oversight activities and foster improved
                communication and understanding of staff roles and
                responsibilities.

                    Based on this evaluation, the following specific
                    recommendations are provided:



                                       27
                                                              Report No. 2001-P-00012
1.	 The Region should continue to encourage open
    communication and full participation of the authorized
    States in policy development, oversight planning, and
    permit review efforts. The current level of
    communication is clearly a program strength and should
    bolster the Region’s efforts to improve and standardize
    its NPDES permit program oversight activities.

2.	 The Region should continue its ongoing efforts to
    standardize the NPDES permit review process across all
    of the State programs. The Region’s cross-branch
    NPDES Permit Team is a good starting point for this
    effort and has begun to improve internal
    communications between permits staff in the Office of
    Watersheds and across other Regional offices. This
    effort, in conjunction with the recommendations that
    follow (regarding explicitly stating NPDES permit
    expectations and standardizing review documents)
    should help to resolve inconsistencies across State
    programs.

3.	 The Region should provide each of its authorized States
    (as well as all Regional staff with NPDES permitting
    responsibilities) an explicit statement of the minimal
    expectations for NPDES permit content and quality.
    This document should restate the central tenets of the
    NPDES regulations in a clear and unequivocal manner
    and should serve as notice that the Region will not
    accept or concur with permits or permit conditions that
    are inconsistent with these tenets.

4.	 The Region should standardize its review and response
    process to more clearly distinguish between informal
    comments and formal objections. Specifically, the Region
    should:

    <	   Develop and use a tool such as a checklist to ensure
         that all permit reviewers conduct reviews in the
         same manner and evaluate permits for the same core
         components.

    <	   Respond to the States using a standardized response
         format to ensure that issues that are
         recommendations and those that are required

                   28
                                         Report No. 2001-P-00012
         actions (i.e., objectionable deficiencies) are clearly
         indicated as such.

    <	   Where there is a question of whether a finding
         should result in a recommendation or a requirement
         (i.e., objection), procedures should be in place to
         solicit Office of Regional Counsel at an early stage in
         the review process.

5.	 The Region should develop and clearly communicate to
    the authorized States a time line for review and response
    to comments and/or objections provided by the Region.
    The time line should encourage communication and
    cooperation in early resolution of issues, but should
    ensure that issues are resolved in a timely manner.
    Where objections are not resolved within a reasonable
    period of time, the Region should consider issuing the
    NPDES permit under the authority of 40 Code of Federal
    Regulations Section 123.44.

6.	 The Region should work with the authorized States to
    better plan permit review workload (i.e., to forecast the
    timing and number of permits that will be submitted by
    each State in the subsequent month or quarter). The
    Region should also consider targeting its NPDES permit
    review efforts to focus on those permits that present the
    most potential for environmental impact and/or public
    concern (rather than attempting to review permits for all
    major facilities). Additionally, the Region should
    occasionally select minor permits from each State
    (including permits for mining facilities) to evaluate
    permit content and quality.

7.	 The Region should investigate the possibility of inter-
    office training or temporary details to encourage better
    communication and understanding between offices
    involved in various aspects of the NPDES permits
    program. The Region should also evaluate approaches to
    encourage junior staff to remain in the permits program
    for longer periods. For example:

    <	   NPDES permits staff could accompany enforcement
         staff on facility inspections or in the development of


                    29

                                             Report No. 2001-P-00012
     an enforcement case (for a facility for which they
     have no permit writing responsibilities).

<	   Enforcement and Regional Counsel staff could
     attend an NPDES permit writer training course or
     could assist permits staff in the review of selected
     NPDES permits.

<	   The Region could develop a career path for junior
     NPDES permits staff that describes performance
     goals, incentives, and associated grade increases for
     remaining in the NPDES program for extended time
     periods.




               30

                                      Report No. 2001-P-00012
                                        EXHIBIT A

            National Pollutant Discharge Elimination System Permits

                 Expired More than Three Years as of June 2000


               Exp.
                                                     Status as of Audit
               Date

     * 1	      1989   EPA objected to State enforcement order language to modify draft permit
                      (Case Study A)

     * 2	      1990   Draft permit being reviewed by EPA after numerous rejections
                      (Case Study B)

       3       1992   Permit last drafted in August 1995. Issue preventing re-issuance is dispute
                      over combined sewer satellite systems

       4       1993   Permit issuance pending results of study

       5       1993   EPA objected to draft permit regarding NPDES and regulation issues

       6       1994   Permit drafted, main issue for delay involved PCB requirements

       7       1994   Permit issuance pending results of study

       8       1994   EPA objected in 1998 regarding State, NPDES, and regulation issues

     *9        1995   Redraft to EPA color issue

    * 10       1995   Redraft to EPA color issue

     11        1996   Co-permitting strategy with other poultry permits

     12        1996   Co-permitting strategy with other poultry permits

     13        1996   Endangered species issue between State and U.S. Fish and Wildlife

    * 14	      1996   EPA objected regarding production based effluent limits. Region
                      investigating whether facility’s discharge has impact on drinking water

     15        1996   EPA waiting on State determination of study results conducted by facility

     16        1996   Draft being revised following EPA objections

     17        1996   Permit issued June 2000

     18        1997   Delays regarding Total Maximum Daily Loads requirements

     19      1997     Total Maximum Daily Loads being incorporated into draft permit
*   Five permits reviewed from the expired list of permits




                                                   31

                                                                          Report No. 2001-P-00012
32
     Report No. 2001-P-00012
    EXHIBIT B


Region III Response 


  to Draft Report





         33

                        Report No. 2001-P-00012
34
     Report No. 2001-P-00012
                                                                                      Exhibit B
                                                                                    Page 1 of 29
             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   REGION III
                                1650 Arch Street
                     Philadelphia, Pennsylvania 19103-2029
                                                           April 19, 2001

SUBJECT:	 Comments on Draft Report of Audit on Region III's
          National Pollutant Discharge Elimination System Permit
          Program
          Report Number 2000-000833

FROM:        Thomas C. Voltaggio
             Acting Regional Administrator (3RA00)

TO:          Carl A. Jannetti
             Divisional Inspector General for Audit (3AI00)


  Thank you for the opportunity to meet with you to discuss the report findings. The meetings
were very helpful to us in addressing the issues and preparing our response. The Region has
reviewed the report findings and recommendations and believes the attached response addresses
the specific report recommendations.

 If you should have any questions on this matter, please contact Joseph Piotrowski at 4-5715.

Attachment




                            Customer Service Hotline: 1-800-438-2474
                                                                              Exhibit B
                                                                            Page 2 of 29
              EPA REGION III’S COMMENTS ON THE 

                  DRAFT REPORT OF AUDIT ON 

                         REGION III’S 

      NATIONAL POLLUTANT DISCHARGE ELIMINATION SYSTEM 

                     PERMIT PROGRAM -

               DRAFT REPORT NUMBER 2000-000833


  We appreciate the opportunity to respond to this Draft Inspector General’s Report
(the “Draft Report”) regarding the National Pollution Discharge Elimination System
(NPDES) Program. The NPDES Program has been an extremely important tool in
achieving the significant improvements over that past 29 years. Our comments
below follow the section headings in the Draft Report. We have attached more detail
comments and supporting documentation in Appendices A through D.

Comments on the Executive Summary of the Draft Report

  While we understand that the Inspector General may have originally intended to
perform a general review of whether National Pollutant Discharge Elimination
System (NPDES) permits in Region III were written to ensure water quality
protection, we believe that the actual scope of the audit was quite different. Rather
than review a broad sample of permits issued by the States or EPA as representative
of permit quality, the Inspector General’s review was confined to less than 20 of the
oldest permits from the total universe of 761 major permits in Region III. In fact, the
bulk of the audit findings rely on detailed review of only five permits, four of which
were very old. One must be cautious, therefore, in drawing far-reaching conclusions
about the entire program from this audit. However, conclusions can be drawn about
the subset of old, complex permits that are useful.

  The fact that the permits selected for detailed review were expired for an extended
period of time is an indication that they were among the most technically and
programmatically complex permits and not illustrative of the bulk of the program
operation or quality. In most instances, the delay in issuance for these permits was
based on the existence or likelihood of an EPA objection. While we do not contest
that there were a few permits that could be considered “weak” in their current form,
we object strongly to the notion that EPA Region III “supports weak permits, thus
hindering enforcement and enabling facilities to discharge with impunity” and
specifically request that this statement be deleted or substantially modified in the
final report based on the attached written documentation. While many Regions
review only a small percentage of State-issued permits, Region III has historically
maintained oversight of 100 percent of State-issued major permits as a measure of
our resource commitment and dedication to quality.




                                           2

                                                                 Report No. 2001-P-00012
                                                                               Exhibit B
                                                                             Page 3 of 29
  The Draft Report states that “the inadequacy of the permits contributed to delays
in issuing better permits.” In fact, the exact opposite is true. When issuance of a
permit is delayed by EPA, it nearly always results in a stronger permit. The notion
that EPA will object to a permit if it is not consistent with Federal laws and
regulations can cause the State to delay issuing a draft permit for EPA to review.
Similarly, if the permits are considered excessively stringent and not well supported
by scientifically defensible water quality standards and NPDES regulations (and not
merely guidance), the States are not likely to issue draft permits for fear of appeals
by the facility and permits which may be overturned.

  It is critical that EPA maintain a working relationship with the States who have
accepted NPDES program delegation, given the resource commitment that EPA and
the States have made in successful State programs. However, the Region does not
have a policy of “working with the States to develop permits acceptable to the
facilities discharging the pollutants.” EPA and the States must develop permits
which are both environmentally protective and defensible on appeal by both the
facilities and environmental interests. If permits are appealed, the end result is that
no new permit is in place with resultant delays will in putting environmentally
protective controls in place. Similarly, if States are to presume that EPA will object
to all permits, the end result would likely be a tremendous backlog in reissued
permits. EPA might then be faced with the burden of withdrawing NPDES program
delegation, clearly not the best interests of the Agency.

Comments on the Introduction of the Draft Report

  The Report generally describes the process whereby EPA reviews draft permits
issued by the States. However, the Report implies that EPA’s effective oversight to
State-issued permits is limited to the permit objection process, that is through
issuing objections and using exclusive authority to issue a permit where EPA has
objected and a State has failed to satisfy EPA’s concerns. In fact, EPA’s strongest
role has been in the review of many permits where EPA does not eventually object,
but rather provides comments which cause the State to modify the draft permit or
provides an acceptable rationale for the original submission. We have attached
documentation to show that more than 95% of EPA’s concerns are addressed through
comments. To demonstrate this, the Region has been maintaining a database to track
our comments and objections to permits and the net effect on the final permit
decision. There is an impressive track record of EPA’s influence on permit quality as
can be seen in the Appendix A summary of how comments have translated into
significant environmental benefit (See Appendix A - EPA Region III’s General
Oversight).

 The Report oversimplifies the process whereby EPA could take over a permit.
First, only where EPA had actually objected to a draft permit would this authority be

                                           3
                                                                 Report No. 2001-P-00012
                                                                              Exhibit B
                                                                            Page 4 of 29
available to EPA. If the State had not issued a draft permit at all, or had revoked an
objectionable draft, EPA would not have the authority to issue a particular permit.
This has been the case in a few of the permits reviewed by the Inspector General
under this audit. EPA’s only authority where no draft permit has been issued would
be to withdraw the State’s delegation of the entire NPDES Program based on poor
performance, a draconian response based upon a single permit. Second, it is a rare
event for EPA Regions to take over a permit in a State delegated program; to our
knowledge, this has occurred less than a dozen times nationwide.

  Finally, the Introduction notes that the Inspector General’s Office did not conduct
field work or interviews in Pennsylvania, although two of the three case studies cited
by the Inspector General’s Office involve Pennsylvania permits. This fact should be
noted in the Report.

Comments on Chapter 1 of the Draft Report

  “Permits Inadequately Protect Water Quality” - The Title of this chapter is
inflammatory and based on very limited data, certainly not a statistical review of
permit quality. Likewise, the summary of conclusions on the first page also broadly
implies that [all] permits lack specific discharge limits, etc., when in reality, the
Inspector General reviewed less than one percent of major permits and primarily
those which were problematic. Our comments above on the Executive Summary
should be considered to apply to Chapter 1, page 7, as well. A more appropriate title
would be: “Old, Long-expired Permits Inadequately Protect Water Quality.”

 “Review Discloses Weak Permits” - Page 8 of the draft report begins with this
heading and seems to imply that EPA somehow found the list of long-expired permits
acceptable as written. In fact, the contrary is true. Generally, the permits were
weak because they had expired and in all likelihood, EPA and the State have been
working on tougher permits for those facilities.

  “Numerical limits were not included” - This paragraph does not include enough
specific information for EPA to evaluate its validity nor does EPA agree that
numerical limits are not or should not be included in permits. The Region has and
will continue to require that where a discharger has demonstrated reasonable
potential to violate water quality standards, a specific numeric limit should be
included in that permit.

 “State agreements inappropriately modified permits”- EPA concurs that permits
should not be modified by agreements which extend the discharger’s compliance
deadline beyond that authorized by the permit. We have objected to a number of
permits where inappropriate compliance schedules have been incorporated into
permits or where the permit is otherwise modified by an enforcement agreement. In

                                          4
                                                                 Report No. 2001-P-00012
                                                                               Exhibit B
                                                                             Page 5 of 29
fact, we objected to several draft permits on this same matter (including the P.H.
Glatfelter permit). There are situations where the schedule leading to compliance is
inherently expected to extend beyond one permit cycle, such as in the
implementation of long-term control plans for Combined Sewer Overflows.

  “Unneeded studies caused delays” - The definition of an “unneeded study” is not
provided in the Report. Few studies are conducted which are “unnecessary,”
particularly where a permit appeal is likely if insufficient data exists to justify
effluent limits data or where significant costs for compliance warrant extra
assurances that controls are needed. We acknowledge that State and EPA resources
and expertise for review of studies is often limited, and that permit writing resources
are barely able to keep pace with the permit renewal process. EPA and the States
need resources through staff expertise or contractor support for those difficult or
complex issues where resources are lacking to adequately evaluate the discharger’s
information.

  “Vague language prevented enforcement” - EPA does not condone the intentional use
of vague language in permits which impedes the ability of EPA or the State
enforcement agency to take appropriate action. However, we recognize that there
have been instances where the permit language has acted as a “shield” and prevented
enforcement actions which were later deemed appropriate from occurring. EPA
believes that the best defense in this case is to insure that permits are based on
reliable data and they are reissued in a timely manner, so that any unforeseen
limitations are avoided.

  “Federal regulations were not included” - EPA does not condone the intentional
omission of Federal requirements from NPDES permits. However, it is important to
understand that where a State has been authorized to issue NPDES permits, those
permits must be consistent with the State regulations in effect to support the NPDES
program. Generally, these regulations are adopted and submitted to EPA for review
and approval when NPDES program delegation is sought and from time to time
afterwards. The State regulations are reviewed to insure that they are consistent
with Federal regulations, but they need not be identical. There have also been
instances where State program authorities have not kept pace with changes in
Federal regulations. In this case, EPA has worked with the States to upgrade their
programs.

  “Informal agreements circumvented compliance” - We believe that this paragraph
refers to a practice initiated by the Pennsylvania Department of Environmental
Protection (PADEP) known as “Part A/Part C” in the early 1990s after PADEP
adopted many new water quality standards for toxic pollutants, as required by the
Clean Water Act (CWA) Amendments of 1986. Formal language would be placed in
each permit allowing the discharger time to conduct site-specific studies and collect

                                           5
                                                                 Report No. 2001-P-00012
                                                                               Exhibit B
                                                                             Page 6 of 29
background data to support a less stringent effluent than that calculated using the
assumptions built into the State’s water quality model. The discharger was given a
preliminary water quality based effluent limit. Once the discharger collected the
appropriate data, the final water quality based effluent limit would not go into effect
until PADEP acted on the discharger’s submittal to confirm or deny the
appropriateness of the effluent limit and agree to the next course of action. This
agreement was formally incorporated into the NPDES permit. This process was not
intended to be long-term and was only intended to apply to new water quality-based
effluent limits which resulted from the new water quality standards. One of the case
studies demonstrates that where the State failed to act on the discharger’s
information, the discharger could gain an exemption from an otherwise needed
effluent limit. EPA agrees that this possibility is unacceptable and has objected to
permits using the “Part A/Part C” process for the more recent permit renewals. At
least one Region of PADEP reports that preliminary water quality based effluent
limits have not been used in lieu of final water quality-based effluent limits for
approximately five years, effectively discontinuing the “Part A/Part C” process.

Case Studies - See Appendix B for EPA’s comments.

Other Issues Noted

  The reference to the failure of the Office of Watersheds to consult with the Office of
Compliance and Enforcement (OCE) and Office of Regional Counsel (ORC) on
important permit issues is not true. EPA’s Office of Watersheds routinely supplies
information to OCE, including Section 106 work plan submittals, draft Strategies
under review by EPA, and has requested assistance on numerous important permits.
Resources necessary to take on the additional workload are limited for both Offices as
well as for ORC. EPA routinely consults with ORC on issues of legal authority,
statewide strategies, general permit renewals and on individual permit objections.
The Agency’s legal interpretation of a prohibition of “comingling” of permitting and
enforcement functions has somewhat complicated communication over the past few
years.

Office of Water Evaluation

  EPA Region III has already taken steps to address the findings of the evaluation by
the Office of Water. On January 19, 2001, the Regional Administrator wrote to each
of the State Secretaries responsible for oversight of the NPDES Program to forward
the Office of Water evaluation (copies attached in Appendix C). The letter identified
Federal provisions that EPA considered to be Critical Elements of the NPDES
Program and also proposed oversight tools in the form of checklists to be used by
EPA in review of State-submitted major permits. The letter proposed that the States
use the checklists as a tool to certify the quality of individual permits in order to

                                           6
                                                                  Report No. 2001-P-00012
                                                                              Exhibit B
                                                                            Page 7 of 29
facilitate EPA review and change the nature of State oversight. EPA has been using
the checklists for internal review of State permits and we have requested that the
States test the checklists as a tool also, with opportunity for further discussion and
refinement expected at the next annual NPDES States Meeting scheduled for May
2001. We are also planning a senior level meeting with the state water directors to
discuss the Office of Water review and improvements that can be made to the
NPDES permitting process.

Conclusion

  EPA concurs with the conclusion that weak permits are inappropriate and should
be avoided as they can provide a disincentive to new, more stringent permit
requirements. EPA has already mounted a significant effort nationally to reduce the
permit backlog. It should be noted that while this has been a significant problem
nationally, Region III has been near the top of the list in terms of having the lowest
permit backlog, i.e. the most modern and strongest permit base.

Recommendations

1-4 	   Objects to permits that do not fulfill requirements - EPA has and will
        continue to object to permits submitted by the States under the terms of the
        MOU/MOA where they fail to meet the requirements of the State and
        Federal regulations. Our record over the last two years included in
        Attachment D of this Report is evidence of EPA’s objections to State-issued
        permits. Evidence from very old permits is not representative of our last few
        years of program oversight.

1-5 	   Use EPA’s exclusive authority to issue permits when States do not satisfy
        Region III objections - While the Region has the authority to take over such
        permits, we believe that the Report underestimates the benefits of
        continuing to exert pressure and influence State-issued permits. The P.H.
        Glatfelter permit provides a good example of this effect. EPA worked with
        the State to develop a tough permit. While the process was long, the State
        retained ownership of the permit and used it as a model for the next pulp
        mill permit. The second permit was submitted to EPA and met or exceeded
        all Federal regulation, with no need to comment extensively or object. EPA
        had, in essence, helped to build the capacity to issue a good permit at the
        State level despite the fact that it was very technically challenging. EPA
        agrees, however, that it is important for the States and dischargers to
        understand that EPA can and will take over an NPDES permit, if
        appropriate.




                                           7

                                                                 Report No. 2001-P-00012
                                                                               Exhibit B
                                                                             Page 8 of 29
1-6 	    Stop the use of any informal agreements that allow permit language to
         ...weaken the permit - EPA agrees and will insure that the use of “Part A-
         Part C” language as described earlier is discontinued.

1-7 	    Utilize the expertise of OCE and ORC, as appropriate, when reviewing
         permits - EPA agrees that it is appropriate to tap this expertise, particularly
         in process issues and in complex permits, such as the case studies included
         in this report. Water Protection Division will continue to take steps to insure
         that OCE and ORC are informed when permits are received for review,
         where appropriate.

1-8 	    Require States to submit Clean Water Act Section 106 work plans so that
         they target specific draft permits for renewal - EPA has withheld 106 funding
         in the past for NPDES performance, including permit renewal and also for
         the Permit Compliance System data input. EPA’s efforts over the coming
         year are targeted toward assuring that the States work to reducing the
         permit backlog to no greater than 10 percent for major permits by the end of
         2001 and for all permits by the end of 2004. EPA will consider withholding of
         funds for Fiscal Year 2002 where appropriate.

1-9 	    Define how the results of studies that are required in permits are tracked by
         Region III personnel - EPA’s emphasis in this area has been to insure that
         where studies are done, the permit will contain a fixed compliance date, so
         that effluent limits are not withheld pending State or permittee action on a
         study. With the elimination of “Part A/Part C” language or other permit
         conditions which prevent a water quality-based limit from being effective, we
         expect that this should not be a problem. We believe that the primary
         responsibility for ongoing review of studies associated with State-issued
         permits rests with the State.

1-10 	   Implement the recommendations in the Office of Water’s evaluation - EPA
         has already begun implementing the recommendations of the Office of
         Water’s evaluation, beginning with a process to engage the States in a
         commitment to certify that permits meet the Critical Elements of the
         NPDES Program. We expect to continue working on implementing those
         recommendations in the next few months.




                                           8

                                                                  Report No. 2001-P-00012
                                                                                          Exhibit B
                                                                                        Page 9 of 29
                                APPENDIX A -

           REGION III’S GENERAL OVERSIGHT OF THE NPDES PROGRAM 


  The Inspector General’s Report gives a generic description of EPA’s review of state issued draft
permits. As stated earlier, EPA believes that this does not give the entire picture of our oversight
role. The list of permits reviewed for the audit represents a very small percentage of the number of
permits covered by the program which have been especially difficult for the States to reissue and
for EPA to accept. As part of program oversight, EPA spends a great deal of time and effort
attempting to improve the quality of each State’s program as a whole, providing guidance and
technical assistance, hosting annual meetings for all EPA and State NPDES program managers and
staff, and by providing training courses on new and developing requirements.

  It is important to acknowledge that authority to issue NPDES permits has been delegated by EPA
to all States within Region III with the exception of the District of Columbia, where EPA retains
the authority to issue permits. Under delegation, the States have adopted legislation and
regulations to support the NPDES Program which EPA approved as part of the delegation process.
EPA’s oversight is carried out consistent with Memoranda of Agreement/Understanding
(MOA/MOU) which define the EPA/State relationship. In general, the MOU states EPA retains its
authority to review major permits issued by each State. EPA has waived its authority to review
minor permits, with certain exceptions. EPA has “revoked its waiver” of authority to review
NPDES permits for confined animal feeding operations (CAFOs) and for Total Maximum Daily
Load (TMDL) related permits. The State retains primary authority for the day-to-day activities of
the program, while EPA’s role is more focused on developing or problem areas.

  Where EPA finds that a State’s efforts have been inadequate, EPA can object to NPDES permits
that do not comply with the State’s water quality standards and NPDES regulations. EPA can, in
theory, “take over” a permit to which EPA has objected following an administrative process
outlined in EPA’s NPDES regulations. Note that this has not happened in Region III nor does
Region III believe that it is a panacea for permits which are not issued consistent with EPA’s
comments. First, the Federal permit must still meet the requirements of the State’s regulations and
the State must certify in accordance with Section 401 of the CWA that the permit is consistent
with the State’s water quality standards. The Federal permit could and most likely would be
appealed as any State permit could be. If the State failed to promptly issue a permit upon
expiration and did not issue a draft permit for EPA review, EPA’s only recourse would be to
withdraw delegation of the program. The resulting burden to EPA would likely be extreme, given
the resources needed to issue the small number of permits that Region III does issue in the District
of Columbia.
                                                                                          Exhibit B
                                                                                       Page 10 of 29
I. Maryland’s NPDES Permitting Process and EPA’s Oversight Role

  It is important to understand the permit issuance process in Maryland is different from that of
other states and EPA. In Maryland, the permit appeal process takes place before permit issuance
[COMAR 26.08.04.01G(9)], and no permit can be issued until the appeal is resolved. Therefore,
delays in permit issuance can occur until appeals are resolved.

  Maryland has a defined permit development process, including a detailed Permits Manual (1996)
and a Watershed Permitting strategy and procedure (1998). Maryland has committed to using a
watershed-based permitting approach to managing its waters, in coordination with the TMDL
effort. The MDE NPDES program is also preparing point-source Wasteload Allocations for
TMDL-listed waters. MDE is incorporating the concepts, monitoring and sampling data
developed during the TMDL process in order to issue its NPDES permits on a watershed by
watershed basis. The state has been divided into five basins, with each year’s NPDES program
focusing on one basin. For any permit less than 2.5 years old when its watershed is being
permitted, the permit will not be revoked and reissued “unless changing it is of special water
quality significance.” Permits which are older than 2.5 years will be revoked and reissued in their
cycle year. Pending permits are handled on a case by case basis.

  EPA receives draft permits for comment, usually before the public notice stage. EPA comments
often result in changes to these draft permits, as evidenced by the attached record of permit
reviews. Again, Case B does not show that EPA comments resulted in significant changes to the
draft permit, and compliance with state water quality standards and federal regulations. Our
objection letters of November 15, 2001 and December 15, 2000 required the permit to insure
compliance with state water quality standards for cyanide, copper, lead, nickel, and zinc at various
outfalls.

  EPA Region III has conducted oversight of the Maryland NPDES program since 1974 in
accordance with the Memorandum of Understanding (MOU). In 1998 and 1999, EPA provided the
following comments on MDE draft NPDES permits, which resulted in changes to these permits.
Of the 18 permits reviewed 1/99-10/99, 72% had major comments which resulted in changes.

  Some of the major issues addressed and corrected in 1999 included: the use of Monthly averages
not quarterly averages, inclusion of ammonia limits, inclusion of mass limits, toxic analysis for
reasonable potential, correct classification of POTW and pretreatment industrial user, inclusion of
Sanitary Sewer Overflow prohibition and reporting requirement, compliance schedule language
clarified.
                                                                                         Exhibit B
                                                                                      Page 11 of 29


 MD NPDES Permit Number           Facility Name                    EPA’s Comments
 MD0001252                        Bayer                            Compliance schedule
                                                                   language amended, monthly
                                                                   limits not quarterly average
 MD0052027                        Northeast STP                    Sanitary Sewer Overflow
                                                                   (SSO) prohibition and
                                                                   reporting requirement
 MD000060                         Perdue                           Nutrient Management Plan,
                                                                   monthly limits, mass limits
 MD0056545                        Sod Run WWTP                     Ammonia limits added
 MD0021491                        Seneca WWTP                      Toxics analysis, BOD analysis
 MD0003034                        Ashburton WTP                    Monthly averages added not
                                                                   quarterly average
 MD0003042                        Montebello WTP                   Monthly averages added not
                                                                   quarterly average
 MD0021512                        Freedom WWTP                     Ammonia limit added
 MD000094                         Connective                       Mass limits
 MD0055182                        Mettiki Coal                     Biomonitoring, toxics
                                                                   analysis included


  In 2000, EPA also provided comments on MDE draft NPDES permits which resulted in
changes to these permits. Of the 29 permits reviewed 1/00-12/00, 90 % had major comments
which resulted in changes.

  Some of the major issues addressed and corrected included: inclusions of waste load allocations
as determined by TMDLs, stormwater pollution prevention plans, testing for reasonable potential
for possible hazardous substances in industrial sludge, reopener clauses for Confined Animal
Feeding Operation (CAFO) regulations, new mixing zone studies for power generating stations,
SSO prohibition, oil/grease and Total Suspended Solids (TSS) limitations for chemical metal
cleaning wastewater, use of discretionary authority for not requiring mass limits, Best Practicable
Technology (BPT), Best Available Technology (BAT), civil daily maximum penalty increased and
criminal negligence penalty corrected, and Fact Sheet improvements to add 303(d) listing and
TMDL preparation status.
                                                                 Exhibit B

                                                              Page 12 of 29


Permit number   Name                       Comment
MD0021822       Ballenger WWTP             Civil daily maximum penalty
                                           increased. Fact Sheet to add
                                           303d listing and TMDL
                                           preparation.
MD0021121       Thurmont WWTP              Document that BOD limits
                                           will meet Dissolved Oxygen
                                           (DO) standards. Civil penalty
                                           amount.
MD0068314       Baltimore Co. MS4          Criminal negligence penalties
                                           not changed. Define key
                                           terms.
MD0002674       PEPCO-Morgantown           New Mixing Zone study
                                           required. Thermal discharge
                                           requirements. Document
                                           discretionary authority for not
                                           requiring mass limits (BPT,
                                           BAT). Add oil/grease and
                                           TSS limitations for chemical
                                           metal cleaning wastewater.
MD0021741       Western Branch WWTP        SSO prohibition. Waste Load
                                           Allocation (WLA) for BOD
                                           complies with approved
                                           TMDL. Reduced monitoring
                                           allowed by EPA guidance.
MD00208850      Naval Surf. W. Ctr. WWTP   TMDL Reopener clause.
                                           Total Phosphorus (Total-P)
                                           limit with P-removal facility
                                           completion. Special
                                           Condition for stormwater
                                           pollution prevention plan.
MD0058611       Trans-Tech, Inc.           Design Flow Rates for
                                           Outfalls 001, 002. Add
                                           Condition to test for possible
                                           hazardous substances in
                                           industrial sludge.
                                                                                          Exhibit B
                                                                                       Page 13 of 29

 MD000060                          Perdue Farms/Salisbury           Special Condition regarding
                                                                    discharge for maximum
                                                                    number of days per calendar
                                                                    year, in accord with TMDL.
                                                                    Reopener Clause for CAFO
                                                                    regulations. Monitoring
                                                                    threshold for stormwater
                                                                    events.
 MD0055174                         Little Patuxent Water            Nitrogen mass loadings. Plan
                                   Reclamation.                     submittal requirements under
                                                                    1987 Patuxent River
                                                                    Watershed legislation.
                                                                    Reopener Clause for
                                                                    Chesapeake Bay Program
                                                                    Nutrient Cap Strategy.


  In summary, the Report has focused on one extremely complex permit, while ignoring the
 majority of Maryland permits. The Report does not include EPA’s specific objection letter for the
Bethlehem Steel permit, and does not acknowledge the very successful permit issuance outcome.
The Report also failed to recognize the unique permit procedures in Maryland regarding permit
appeals before permit issuance which can delay permit issuance.

II. Pennsylvania Oversight and Comments on Draft Permits

  Pennsylvania has the second largest number of “major” NPDES permits (393) in the nation

(behind only Texas with 572). Region III has historically reviewed all major permits, all permits

to Confined Animal Feeding Operations, and all permits which are written to implement TMDLs. 

Region III also reviews other documents which have a strong influence on permit quality in

Pennsylvania, such as statewide strategies, guidance to permit writers, and changes in regulations. 

The picture of EPA’s oversight role is somewhat diminished by the Report’s focus on a small

number of “significantly challenging permits” to determine the overall oversight of the program.


  Since FY1997, EPA Region III has tracked comments made to draft permits written by the

Commonwealth in order to identify problem areas and also to provide information to the State on

where additional focus is needed. These records can be found attached to this Appendix. 

Between FY1997 and FY2000, 355 draft permit actions were received by EPA Region III for

review. Significant comments were forwarded to Pennsylvania on 74% of the permits reviewed in

FY1997, 63% in FY1998, 66% in FY1999, and 58% in FY2000. These comments included, but

are not limited to:


1-11          Compliance with EPA’s CSO Control Policy;

1-12          Limiting discharges to best available technology requirements;

1-13     Reasonable potential analysis for water quality based effluent limitations;

1-14     Effective compliance with effluent limits;

1-15     Controlling discharge toxicity with Whole Effluent Toxicity testing;

1-16     Best Management Practice implementation for Confined Animal Feeding Operations;

                                                                                            Exhibit B
                                                                                         Page 14 of 29
1-17     Elimination of illegal bypassing.

   It is important to note that the vast majority of permit issues are resolved at the “comment” stage,
i.e. the State addresses EPA’s concerns and changes are made in the draft permit, eliminating the
need for EPA to object to the permit. These comments often have substantial environmental
benefits. Also, as State policies are developed, recurring problems are eliminated. For example,
one Regional Office in PADEP had a practice of placing language into draft permits which
authorized sanitary sewer overflows (SSOs). EPA’s Office of Watersheds commented to PADEP
that this practice was inappropriate as SSO’s were illegal discharges. The comment was intended
primarily to satisfy concerns raised by the Office of Compliance Assistance and Enforcement
regarding the impact of this language on the enforceability of the permits. Repeated objections by
EPA to these types of permits led PADEP’s Central Office to issue a central policy prohibiting
SSO language in permits and the problem was resolved.

  EPA also maintains a strong role in developing programs. EPA worked extensively with PADEP
on the development of its strategy for Confined Animal Feeding Operations (CAFOs),
development of a strategy for Combined Sewer Overflows (CSOs), issuance of General Permits for
CAFOs and CSOs, and staff training. EPA is also in the process of completing a detailed
evaluation of PADEP’s stormwater permitting program.
                                                                                           Exhibit B
                                                                                        Page 15 of 29
                                    APPENDIX B

                   EPA REGION III’S COMMENTS ON CASE STUDIES


CASE STUDY A

I. EPA’s efforts in the last five years to reduce color impacts

  EPA Region III agrees with the assertion that re-issuance of this permit was long overdue. In
fact, EPA was heavily involved over the past five years in helping the Pennsylvania Department of
Environmental Protection (PADEP) to craft a tough, environmentally protective permit. The
report did not consider that this was an extremely complex situation, not only technically, but also
from the standpoint of enforceability and also from the threat of litigation. There was substantial
citizen group oversight of this matter and the existence of court challenges to the existing permit
which EPA had to weigh from a technical standpoint so that the resulting permit would withstand
appeal and litigation. Substantial citizen involvement in the permit was also accommodated by an
extraordinary level of cooperation and communication between the state, federal agencies, and the
company. EPA took a leading role in convening meetings with all parties.

  It is important to understand that for this facility, issuance of a revised permit by PADEP in 1994
would not have immediately achieved the dramatic reductions in color needed to achieve the water
quality standard. The IG’s report correctly states that the consent adjudication allowed the
company to have an extension of time if it could be demonstrated that the color limit could not be
achieved. However, it does not describe that the company was also at the same time required to
use “best demonstrated technology” and to research annually whether there were any
developments in technology which would have allowed the company to achieve the instream water
quality standards for color. The Company submitted these reports annually, continuing to evaluate
color removal processes for application at the site. Copies of several reports are enclosed for your
information. The reports conclude that while a number of processes were evaluated, the company
was unable to identify technology which would enable it to achieve the level of control needed to
achieve water quality standards. Based on review of the reports, EPA Region III and PADEP were
unable to refute the company’s claims that no better and appropriate technology existed which
could be required at the Facility A’s plant. It is likely that had the permit been issued in 1994, the
company would have been considered to have implemented “best demonstrated technology” per
PADEP’s regulations.

  The Report also does not recognize that the Company was making significant improvements to
its processes despite the fact that a revised permit had not been issued. During the same period,
the company conducted pilot studies to determine the feasibility of alternative technologies and
completed a multimillion dollar pulp mill modernization project in 1994 which included installing
oxygen delignification, increasing chlorine dioxide capacity, and installing a new recovery boiler
for environmental reasons, including increasing color removal. With these process changes, the
company was able to see a 30 percent reduction in effluent color. In fact, EPA’s national experts
on pulp and paper mills noted in their July 1999 report entitled Findings and Recommendations
on Reducing Color Discharge, Facility A, Spring Grove, PA, (the Findings) that the “Current
Color discharge is ...among the better mills in the US.” Water quality standards were exceeded,
in large part, because the plant discharge was to a small stream and the standards were very
stringent. A copy of the Findings is enclosed for your information.
                                                                                            Exhibit B
                                                                                         Page 16 of 29
  Nonetheless, the breakthrough in the search for alternative color technologies finally occurred
when EPA Region III was able to obtain assistance from EPA’s national experts on pulp and paper
at PADEP’s request in July 1998 to review the Company’s color reduction progress reports and
plans. EPA Headquarters had recently completed a similar evaluation of the Champion Paper
facility in Region IV and had completed research and site visits in support of the development of
revised effluent guidelines. The Findings, issued on 7/9/1999 noted that upon evaluation of the
best technologies available worldwide, there was a range of technologies available, although no
instance in which they had been combined and applied at a single location. The EPA experts
recommended that Facility A try a specific combination of technologies, but that additional
evaluation would be needed at each step. A meeting was held by EPA in Harrisburg on 6/10/99 to
allow all stakeholders, including the Company and environmental groups, full access to EPA’s
experts to hear the results of the final report and to confirm what could and could not be done to
improve the color of the plant’s discharge.

  The Findings recommended that the next permit issued to the Company include a specific
combination of technologies, incorporate an interim milestone for construction not until the end of
the fourth quarter of 2003, and attain the Tier 1 Best Available Technology (BAT) effluent
limitations of the voluntary program (VATIP) under the Cluster Rule by no later than 4/15/2004.
The Company was eligible for the 4/15/2004 schedule as a result of having enrolled in VATIP.
There was no expectation that the facility could achieve instant compliance with the color
standard. The schedule derived by the experts became the NPDES permit that was proposed by
the State when the draft permit was issued in October 1999. We bring these activities to the
attention to underline that EPA’s intervention was not merely to “negotiate” the permit. A
significant amount of complex research was necessary before a permit that was a significant
improvement over the current condition could be issued.

  The Region takes exception to the last paragraph in the introduction to Case Study A. First, the
sentence : ..”the facility legally discharged its waste products for at least 30 years...” implies that
somehow the discharge of waste products is not allowed nor is it legal. The authorized discharge
of waste products forms the basis for the NPDES Program. All dischargers are legally authorized
through NPDES permits to discharge waste products. Second, this paragraph implies that
offensive odors associated with the facility are somehow the responsibility of the NPDES program
as well, when in fact, odors are not regulated by the NPDES Program or by the Federal
government. Third, this paragraph implies that the color of Codorus Creek impaired the growth of
aquatic plants and jeopardized the health of migratory birds and aquatic life. Again, this is not
true. The impact of color here is based on aesthetic concerns, i.e. visual appearance, and not on
any other impact on aquatic life, wildlife, or human health. Only in extreme cases where color
blocks light can it have an impact on plant growth. That was not the case with Facility A. There
was also never any evidence that the facility impacted the health of migratory birds. If the final
Report continues these statements, the Region wishes to have advanced review of the scientific
evidence supporting this allegation.

II. Significant improvements in this permit beyond color reductions

  While color may have been the most recent issue handled by EPA, we did not consider color to
be the most significant concern from the perspective of risk to human health and aquatic life. EPA
considered temperature and toxics to have much greater potential for concern. These concerns
                                                                                          Exhibit B
                                                                                       Page 17 of 29
were addressed and a number of provisions, including innovative requirements which went beyond
regulatory requirements, were included in the final permit.

  The Report correctly identifies that the U.S. Fish & Wildlife Service (FWS) alerted the State and
EPA of concerns about the potential for bioaccumulation of dioxin in the plant’s discharge and
impacts on bald eagles downstream in the Susquehanna River. The Report fails to mention that, as
a result, EPA organized a cooperative effort in 1997 involving FWS and PADEP to monitor fish
tissue concentrations for dioxin at all four major paper mills in Pennsylvania to insure that dioxin
contamination was not occurring. The study confirmed that there was little to no impact on
aquatic life due to dioxin from the facility’s discharge. The permit was still, however, written with
a dioxin limit and internal monitoring at potential accumulation points within the plant.

  The Inspector General’s Report should also should note that the NPDES permit finally issued to
the facility was the first permit issued in Region III to incorporate the new requirements of the
Cluster Rule. EPA’s development of the 40 CFR Part 430 "Cluster Rule" technology based
effluent limitation guideline requirements took longer than expected to complete. Once a final
draft was available, PADEP revisited what it had written for Facility A’s permit to incorporate the
Cluster Rule’s requirements rather than allow the permit to be reissued earlier and escape the
Cluster Rule’s more stringent requirements. It should be noted in the Report that EPA’s Cluster
Rule did not provide guidance on how to handle the color issue, but rather placed the
responsibility at the local level.

  The Inspector General’s Report should note that EPA’s comprehensive involvement in Facility
A’s permit also enabled PADEP to use it as a model for another pulp & paper mill permit, even
though it contained a number of requirements that were beyond regulatory requirements. EPA
was able to approve that draft permit (Appleton Papers) immediately, without objections or
comments to be resolved. This permit is now being used as the pulp and paper mill standard for
Region III and possible for other Regions.

  As mention earlier, there are a number of provisions in the permit for Facility A which go
beyond minimum requirements. These requirements were made possible by the efforts of EPA
and PADEP over the past five years and in all likelihood would not have been included in a permit
issued in 1994 based on the information available at that time. They include:

• Stringent limits on the discharge of Total Suspended Solids and Biological Oxygen Demand
  (BOD). The draft renewal permit dated 3/04/97 included the same Total Suspended Solids
  limits as the previous permit with the requirement of conducting a solids study in the Codorus.
  Our 6/19/97 objection questioned the use of the existing mass limits since there is documented
  solids problems in the Creek below the discharge. As a result, the final permit reduced the
  average monthly mass limit almost in half and still required the solids study.

• Final water quality-based effluent limits for dioxin.

• Influent and effluent monitoring for Chemical Oxygen Demand (COD)

• A study of solids and odors produced by the facility.
                                                                                           Exhibit B
                                                                                        Page 18 of 29
• A permit requirement for the company to maintain stream flow in the Codorus Creek with
  releases from the Company-owned upstream lake. This is beneficial for maintaining the
  downstream recreational value of the stream during periods of low flow.

• Improvements in the “boilerplate” permit language, including
  - increased monitoring and reporting requirements
  - bypassing limitations
  - penalties and liability explanations.
  - biosolids handling
  - controlling chemical additive usage rates

• The permit was the first reissued in Region III to comply with the current 40 CFR Part 430
  "Cluster Rule" technology based effluent limitation guideline requirements, including internal
  monitoring points on both the bleach plant effluents (softwood and hardwood process) with the
  proper effluent limits and required Best Management Practices. Facility A will be eliminating
  elemental chlorine bleaching by converting to 100% chlorine dioxide in order to comply with
  these requirements and to assist in reducing color in the wastewater discharge.

• Facility A will be required to complete a "mass and energy balance" study to identify other
  sources of color with the intent of further reducing color discharge in the wastewater.

• Whole Effluent Toxicity (WET) Testing is required as part of the Facility A permit and it has
  also been included in the draft permit for another facility. Note that WET testing is not required
  by State or Federal NPDES regulations for industrial facilities, however, it is being imposed here
  to insure that there are no hidden toxics problems which are undiscovered through chemical
  testing. Toxics identification and reduction will be required if the testing determines the effluent
  to fail these tests.

• 45 Stormwater outfalls will be included in the permit renewal with monitoring requirements.

• The permit renewal will require a new 316(a) temperature study to replace the 316(a) study
  completed in 1979. The new study will determine the current effect of the effluent temperature
  on the receiving stream. The results of the study will justify whether or not Facility A can
  continue to receive a water quality criteria variance for temperature as allowed by Section 316(a)
  of the Clean Water Act.

• Facility A has enrolled in Tier I of the Voluntary Advanced Technology Incentives Program
  established under 40 CFR 430.24(b) and will be required to meet an effluent limit for
  Absorbable Organic Halides (AOX) more stringent than the Best Available Technology
  established limit. The permit includes an implementation schedule for compliance with VATIP.


III. Factual discrepancies in the IG’s report, Case Study A

  The following describes specific errors that we would like to bring to the Inspector General’s
attention.

A. page 11, second block - This “1999” discussion is chronologically incorrect.
                                                                                        Exhibit B
                                                                                     Page 19 of 29

1) The second paragraph suggests that a proposed separate agreement would modify a draft permit
submitted in 1999. A separate agreement was not publicly proposed until 2/26/2000. This
agreement was then objected to on 5/12/2000 because it purported to modify the draft permit.
However, the draft permit itself, also public noticed on 2/26/2000 was not objectionable since it
contained immediate compliance with the water quality based effluent limit for color. The permit
re-issuance was delayed in order to insure that concerns by EPA and environmental interests
regarding enforceability were resolved.

2) The italic quote came from an EPA letter dated 7/2/1999. The first sentence of the last
paragraph does not complete the picture because on 7/7/1999, PADEP withdrew its previous draft
permit (12/28/1998) and promised to provide another draft on 10/5/1999. Withdrawing of the
draft permit took away our objection to that draft and on 10/4/1999, PADEP submitted the revised
draft.
                                                                                           Exhibit B
                                                                                        Page 20 of 29
The precise chronology for 1999 - 2000 is as follows:


 1/04/99 - EPA received PADEP’s revised draft permit, dated 12/28/98.

 2/03/99 - EPA issued time extension letter on 12/28/98 draft.

 2/09/99 -Facility A issued formal comments to EPA HQ regarding the Preliminary color report.

 2/16/99 - EPA submitted comments to PADEP pertaining to the 12/28/98 draft.

 4/05/99 - EPA issued specific objection to the 12/28/98 draft.

 6/10/99 - EPA hosts a meeting in Harrisburg with EPA HQ, PADEP, environmental groups, and

    the facility for final discussions on Preliminary color report and to allow all interested parties
    free access to ask questions of EPA’s national experts.
 7/07/99 - PADEP withdraws 12/28/98 draft and EPA withdraws its objection based on the
 commitment by the company to submit a revised draft by 10/5/99.
 7/09/99 - Final color report from EPA HQ.
 10/12/99 - EPA received PADEP’s revised draft permit, dated 10/04/99.
 11/12/99 - EPA issued time extension letter on 10/04/99 draft.
 01/10/00 - EPA received PADEP’s amendment to the 10/04/99 draft permit, dated 01/06/00.
 1/10/00 - EPA issued a letter stating the permit is acceptable as written and that
    EPA will not make a specific objection.
 2/26/00 - PA Bulletin notice of draft permit and draft consent order & agreement (the draft
    permit noticed was nearly identical to the draft permit dated 01/06/00).
 3/17/00 - EPA issued time extension/general objection to 02/26/00 noticed Consent Order and
 Agreement (CO&A).
 4/09/00 - Meeting in Harrisburg with PADEP, the facility, the environmental groups, and
    EPA co-chaired by EPA’s Deputy Regional Administrator and the Director of PADEP’s
    Southcentral Regional Office.
 5/12/00 - EPA issues specific objection to 02/26/00 noticed CO&A because it purports to
 modify the draft permit.
 9/07/00 - PADEP issues final permit after negotiation with Office of Regional Counsel and
 Office of Compliance and Enforcement regarding language for the CO&A. Again, note that the
 January 2000 draft permit contained color limits immediately effective upon permit issuance.
 The delay until the permit was finally issued in September was solely based on language being
 negotiated on an enforcement document, not the permit.
                                                                                           Exhibit B
                                                                                        Page 21 of 29
COMMENTS ON CASE STUDY B

I. Improvements gained as a result of EPA’s involvement in this permit

  The Case B description also does not consider the extremely complex technical and
environmental issues surrounding this permit and the potential for court challenges and appeals
which could have delayed issuance. Substantial citizen involvement in the permit was also
addressed by an extraordinary level of cooperation and communication between the state, federal
agencies, and the industry.

  The Case B permit was issued by the Maryland Department of Environment (MDE) February 27,
2001 and effective on March 1, 2001, i.e. no appeals were registered. The permit requires the
permittee to construct new treatment facilities to achieve significant discharge reductions,
including an 87 percent reduction (17 million pounds annually) in the discharge of metals and
other suspended solids. Oil and grease pollution will be reduced by 3.7 million pounds annually,
representing an 85 percent reduction.

  Additional provisions of the permit include stringent limits on concentrations of copper, lead,
zinc, nickel, chromium, and cyanide. In keeping with the Chesapeake Bay Agreement
commitment, permit limits are imposed at the ends of the discharge pipes and do not include the
use of mixing zones (except for nickel, whose mixing zone will be eliminated). The permit also
includes innovative requirements for pollution prevention and nutrient reduction in accordance
with Chesapeake Bay goals.


II. Factual discrepancies in the IG’s report, Case Study B

A. page 14- third block:

1) fourth sentence reads “The suit was settled in 1993 by allowing new, weaker water quality
standards to be promulgated.” The italicized words are incorrect, since the standards that were
promulgated were acceptable to EPA and did provide protection for aquatic life and human health.
From time to time, EPA revises and publishes a compilation of its national recommended water
quality criteria for pollutants, developed pursuant to Section 304(a) of the Clean Water Act. These
recommended criteria provide guidance for States and Tribes, in adopting water quality standards
under section 303(c) of the Clean Water Act (CWA). These water quality criteria are not
regulations, and do not impose legally binding requirements on EPA, States, Tribes or the public.

2) last sentence reads, “The settlement also allowed this facility to apply for site-specific
variances.” The settlement just restated MDE COMAR regulation 26.08.02.03-2C provides that
“site specific numerical toxic substances criteria may be developed on a site specific basis, and
Federal guidance on site-specific criteria as contained in EPA’s Water Quality Standards
Handbook.

B. page 14-fourth block, second sentence reads, “The Region agreed to omit copper limits if the
permit contained a condition requiring additional copper sampling to assure compliance with
water quality standards.” This sentence is misleading since, our letter also required that a reopener
                                                                                           Exhibit B
                                                                                        Page 22 of 29
clause be included that would reopen the permit to include copper limits if the sampling showed
water quality exceedances.

C. page 15-fifth block, does not include our specific objection letter of December 15, 2000, which
stated: (1) that compliance schedules can not be granted for technology-based effluent limitations,
(2) the need to use 5 year production values for permit limits, (3) the need for final water quality
based limits for cyanide, copper, lead, nickel and zinc at various outfalls, (4) the need for ammonia
and phenol limits based on effluent guidelines, and (5) the need for new source performance
standards for the cold rolling mill.
                                                                                           Exhibit B
                                                                                        Page 23 of 29
COMMENTS ON CASE STUDY C

  EPA agrees for this case study that the permit as written and as followed by PADEP was not
adequate to protect water quality standards. PADEP should have acted upon information provided
by the company as a condition of the 1995 permit to put a final nitrate limit in place to protect the
downstream water supply. PADEP should also have acted to insure that the final limit for nitrate
was in place and monitoring was being performed to insure that the downstream water supply
would be protected based on the Company’s notice that production had increased significantly
since the time the last permit issued.

  The Facility C permit was one of the first written after an agreement had been reached about 5 ½
years ago on incorporation of new toxics limits in permits. The State had adopted water quality
standards for toxics in 1990, as many others did to comply with the requirements of the CWA
Amendments of 1986. Because the resulting new limits were stringent and there were some
questions regarding the toxicity of metals and how they should be handled, many permits issued by
PADEP were being appealed, causing the new permits to be stayed. In an effort to eliminate the
mounting backlog, EPA agreed that PADEP could under certain scenarios, allow a one-time
schedule in the permit for the permittee to complete special studies before the limits became
effective. Under this agreement, referred to as “Part A-Part C”, a new water quality-based effluent
limit would be placed in Part A of the permit where insufficient data existed to established a final
limit. The permittee was then given the option to elect to conduct site-specific studies or collect
stream or effluent data and to submit the results of the study to PADEP as Phase I of a Toxicity
Reduction Evaluation. Once the studies were done and submitted to PADEP, it became PADEP’s
responsibility under this scenario to take the next step to insure that final water quality-based
effluent limits were put in place where needed. Facility C took advantage of this process and
performed the necessary studies, essentially putting a hold on a final limit for nitrate until PADEP
acted on the study results. In this case, PADEP did not act on the study results and the final limit
did not go into effect. EPA has not had a practice of following up on these studies and did not
know that the final limit was not effective until the case came to EPA’s attention because of local
concerns about public water supply quality.

  While we understand that there are other cases where this process has been followed by PADEP
and worked well, we agree that it is inappropriate and have asked PADEP to suspend use of the
“Part A- Part C” language or face objection by EPA. We understand that at least one Region of
PADEP has not been giving PWQBELS for about five years, keeping in line with EPA’s
impression that this was to be a one-time application.

  On Facility C, EPA has objected to the latest version of the draft permit, noted that the “Part A-
Part C” language proposed for new toxic pollutants is unacceptable. Final water quality based
limits must be effective for all parameters within the life of the permit.
                                                                                             Exhibit B
                                                                                          Page 24 of 29

                                           APPENDIX C


                        EPA Region III’s Letters to the State Secretaries


                                  Regarding NPDES Oversight





The following letter was sent to each State within Region 3. The list of recipients is:

 Honorable Michael C. Castle                        Honorable Nicholas DiPasquale
 Director                                           Secretary
 West Virginia Division of Environmental            Delaware Department of Natural Resources
 Protection                                         and Environmental Control
 10 McJunkin Road                                   89 Kings Highway
 Nitro, WV 25143                                    Dover, DE 19901
 Honorable James M. Seif                            Honorable Dennis Treacy
 Secretary                                          Director
 Pennsylvania Department of Environmental           Virginia Department of Environmental Quality
 Protection                                         629 East Main Street
 P. 0. Box 2065                                     Richmond, VA 23219
 Harrisburg, PA 17105-2065
                                Honorable Jane T. Nishida
                                Secretary
                                Maryland Department of the Environment
                                2500 Broening Highway
                                Baltimore, MD 21224
                         UNITED STATES ENVIRONMENTAL PROTECTION                            Exhibit B
                                                                                        Page 25 of 29
                                             AGENCY
                                            REGION III

                                         1650 Arch Street

                              Philadelphia, Pennsylvania 19103-2029



                                                                                        January 19, 2001

Honorable Michael C. Castle, Director

West Virginia Division of Environmental Protection

10 McJunkin Road

Nitro, WV 25143


Dear Director Castle:


  On January 9, 2001, 1 wrote to you concerning my intention to implement changes in the United

States Environmental Protection Agency's (EPA) oversight of the National Pollutant Discharge

Elimination System (NPDES) Program in order to respond to new challenges and also to better target

the efforts of EPA and the states so that mutual benefits can be realized. In a conference call with your

representatives on January 16, we discussed the concept further and initiated a process to further refine

the tools to be used. I continue to believe that EPA plays an important role in insuring that a level

playing field exists across state and regional boundaries and also to insure that NPDES permits are of

high quality and reflect modem program requirements. At the same time, the states have considerable

expertise and we need to fully recognize their leadership and experience so that efforts are not

unnecessarily duplicated. During the call, it was agreed that EPA would continue discussing this

proposal with the states, involving technical staff and also engaging state management.


  EPA has an ongoing role in reviewing draft NPDES permits submitted by the states consistent with

the Memoranda of Understanding/Agreement (MOU/MOA) established as part of program delegation.

One of the major goals of EPA's review of NPDES permits is to insure that minimum Federal

requirements are met. NPDES permits may also be subject to further discussion where interpretation

of policy or guidance may differ and where the nature of the program may be new or evolving (such as

with stormwater or concentrated animal feeding operations). As discussed in the conference call on

January 16, EPA has identified "critical elements" which must be addressed by each NPDES permit in

order to satisfy regulatory requirements.


  To facilitate the review of draft permits for compliance with these regulatory requirements, EPA has

developed a series of checklists. The checklists are designed to organize and highlight information in a

way that EPA and the states can more easily identify where additional discussion is likely and also

where the level of EPA's review could be reduced. The content of the checklists was discussed further

at a meeting among our technical staffs on January 18 and some revisions were made. Enclosures

include the following:


!   Critical Elements of the NPDES Permits Program (revised to include regulatory citations)


!   Municipal NPDES Permit Review Checklist





                            Customer Service Hotline: 1-800-438-2474
                                                                                           Exhibit B
                                                                                        Page 26 of 29



                                                    2


!   Non-Municipal NPDES Permit Review Checklist

!   Suggested Timeline for Regional and State NPDES Permit Review Process

!   State Transmittal Checklist to Assist in EPA's Targeting of NPDES Permits for Review.

EPA intends these checklists to be used as an objective guide during the review of state-submitted
NPDES permits. While we do not intend to require that the states use the checklists, we encourage
their use as a tool that can expedite EPA's review process and ensure early consultation about those
permits where additional discussion is needed. For states that opt to use these checklists as a self-
certification tool, EPA will limit or eliminate its pen-nit-specific oversight role because regulatory
requirements will be clearly identified as being met. We share the states' concerns that these tools do
not independently establish policy or replace regulatory requirements.

  Thank you for helping us to expedite this first step in modernizing Region III's oversight to better
recognize the primacy of mature state programs. EPA is eager to continue discussing this concept at a
policy level. Larry Tropea, of the Pennsylvania Department of Environmental Protection, has agreed to
lead these management discussions and anticipates continuing them with you in February.

  EPA and the states have a real opportunity, working together, to improve NPDES permit quality and
consistency, and simplify our relationships on permits at the same time. The NPDES program has
been, and should continue to be, one of the most significant protectors of clean water. Should you
wish to discuss this matter further, please contact Rebecca Hanmer, Director of the Water Protection
Division, at (215) 814-2300. 1 wish you well in your important endeavors.


                                              Sincerely,


                                              Bradley W. Campbell
                                              Regional Administrator

Enclosures

cc: Carl A. Jannetti, Office of the Inspector General
  Allyn Turner, Chief, Office of
     Water Resources
  Jerry Ray, Assistant Chief,
     Permits Section
                                                                            Exhibit B
                                                                         Page 27 of 29
                                    APPENDIX D

                       EPA Region III’s NPDES Permit Objections

                                      1999 - 2000


  Permit        Facility          Draft      General      Specific          Issues
  Number                         Receipt    Objection    Objection
PA0217611   City of           12/11/98      01/11/99    3/11/99      Compliance with
            Pittsburgh                                               Combined Sewer
                                                                     Overflow (CSO)
                                                                     requirements and
                                                                     coordination with
                                                                     ALCOSAN

PAG 12      CAFO General      04/05/99      N/A         07/06/99     Eligibility, Discharge
            Permit                                                   Definition, Best
                                                                     Management
                                                                     Practices (BMPs),
                                                                     Monitoring,
                                                                     Phosphorus, Land
                                                                     Application

PA0027014   Altoona           07/01/99      07/30/99    09/23/99     Compliance with
            Easterly                                                 CSO Nine Minimum
                                                                     Control Requirements
                                                                     (NMCs)

PA0027006   Tamaqua           08/23/99      09/20/99    11/19/99     Compliance with
            Borough                                                  CSO NMCs

PA0021571   Morrisville       10/25/99      11/24/99    01/24/00     Compliance with
            Borough                                                  CSO NMCs

PA0020346   Punxsutawney      11/08/99      11/29/99    02/08/00     Compliance with
            Borough                                                  CSO NMCs,
                                                                     reclassification of new
                                                                     CSO outfalls

PA0008869   PH Glatfelter     02/17/00      03/17/00    05/12/00     Consent Order &
                                                                     Agreement (CO&A)
                                                                     modification of
                                                                     permit for color
                                                                     compliance

PA0026921   Greater           06/02/00      06/27/00    08/31/00     Compliance with
            Hazelton                                                 CSO NMCs

PA0023248   Berwick M.A.      08/16/00      9/14/00     11/14/00     Compliance with
                                                                     CSO Policy
                                                                     Requirements for a
                                                                     Long-term Control
                                                                     Plan (LTCP)
                                                                          Exhibit B

                                                                       Page 28 of 29


  Permit        Facility         Draft     General      Specific          Issues
  Number                        Receipt   Objection    Objection
PA0006343   AK Steel          09/25/00    10/17/00    11/21/00     Various issues include
                                                                   drinking water impact
                                                                   of nitrates and final
                                                                   compliance schedule

PA0070041   Mahanoy City      11/21/00                12/21/00     Compliance with
                                                                   CSO Policy
                                                                   Requirements for a
                                                                   Long-term Control
                                                                   Plan (LTCP)

PA0023043   North East        01/05/01    02/05/01    04/06/01     Whole Effluent
            Borough                                                Toxicity (WET)
                                                                   testing and
                                                                   Compliance with
                                                                   Great Lakes Initiative
                                                                   (GLI) Certification

PA0025917   Chalfont-New      01/17/01    02/15/01    Expected     Secondary treatment
            Britain                                   04/17/01     bypassing and
                                                                   blending

DE0051071   New Castle        05/18/99    06/14/99    08/13/99     Incomplete
            County MS4                                             compliance schedule,
                                                                   inadequate detail on
                                                                   SW controls

DE0000736   Vlasic Foods      03/02/00    03/27/00    05/25/00     Compliance with
            Inc., Millsboro                                        Inland Bays TMDL.
            Plant
DE0000086   Mountaire         10/04/00    11/02/00    12/22/00     Compliance with
            (Townsends)                                            Inland Bays TMDL
                                                                   issue.

MD0001201   Bethlehem         10/17/00    11/15/00    12/15/00     Application of and
            Steel                                                  compliance with
                                                                   technology Effluent
            Corporation -
                                                                   Guidelines,
            Sparrows Point                                         production rates,
            Division                                               reasonable potential
                                                                   to exceed water
                                                                   quality instream
                                                                   criteria, Best
                                                                   Available Technology
                                                                   (BAT) needed for
                                                                   phenols and
                                                                   ammonia.
                                                                          Exhibit B

                                                                       Page 29 of 29


  Permit        Facility          Draft     General      Specific          Issues
  Number                         Receipt   Objection    Objection
MD0068209   Allen Family       02/21/01    03/22/01    due          New discharger to
            Foods,                                     05/22/01     water quality
                                                                    impaired waterbody
            Inc./Hurlock
                                                                    (303d listed with
                                                                    TMDL).



WV0023213   Parkersburg                                03/10/99     Draft allowed
            Utility Board                                           discharges from
                                                                    Sanitary Sewer
                                                                    Overflows (SSOs)

WV0050610   Malden Public                              03/25/99     Draft allowed
            Service District                                        discharges from SSOs

WV0077020   Solutia, Inc.                              04/03/00     Compliance with
                                                                    dioxin TMDL

WV0023108   Weirton                                    11/29/00     Secondary treatment
                                                                    variance on 85 %
                                                                    removal

VA0066630   Hopewell           12/14/99                01/12/00     Draft allowed
            Regional STP                                            discharges from SSOs
64
     Report No. 2001-P-00012
                                     EXHIBIT C

                                     Distribution


Office of Inspector General

Inspector General (2410)

Assistant Inspector General for Audits (2421)

Assistant Inspector General for Planning, Analysis and Results (2450)

Assistant Inspector General for Program Evaluation (2460)

Congressional/Media Relations Liaison (2410)

Divisional Offices of Inspector General


EPA Region III

Regional Administrator (3RA00)

Director, Water Protection Division (3WP00)

Associate Director, Office of Watersheds (3WP10)

Associate Director, Office of Compliance and Enforcement (3WP30)

Audit Follow-up Coordinator (3PM70)

Region III Library (3PM50)


EPA Headquarters

Comptroller (2731A)

Agency Audit Follow-up Coordinator (2724A)

Agency Follow-up Official (2710A)

Agency Audit Liaison (2201A)

Associate Administrator for Congressional and Intergovernmental

 Relations (1301A)

Director, Office of Regional Operations (1108A)

Director, Office of Water

Associate Administrator for Communications, Education, and Media

 Relations (1101A)





                                         65

                                                               Report No. 2001-P-00012
